APPENDIX TABLE OF CONTENTS
Opinion of the United States Court of Appeals
for the Ninth Circuit (June 5, 2019) .................. 1a
Order of the United States District Court for the
Northern District of California Setting Amount
of Civil Contempt Sanctions
(August 31, 2017) ............................................. 11a
Order of the United States District Court for the
Northern District of California
(July 17, 2017) .................................................. 24a
Order Granting Motion for Preliminary Injunction
(February 5, 2016) ............................................ 61a
Order of the United States Court of Appeals for
the Ninth Circuit Denying Petitions
for Rehearing En Banc (July 19, 2019) ......... 125a

App.1a
OPINION OF THE UNITED STATES COURT OF
APPEALS FOR THE NINTH CIRCUIT
(JUNE 5, 2019)
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
________________________
NATIONAL ABORTION FEDERATION,

Plaintiff-Appellee,
v.
CENTER FOR MEDICAL PROGRESS;
BIOMAX PROCUREMENT SERVICES, LLC;
DAVID DALEIDEN, AKA Robert Daoud Sarkis;
TROY NEWMAN,

Defendants,
and
STEVE COOLEY; BRENTFORD J. FERREIRA,

Respondents-Appellants.

________________________
No. 17-16622

D.C. No. 3:15-cv-03522-WHO
________________________

App.2a
NATIONAL ABORTION FEDERATION,

Plaintiff-Appellee,
v.
CENTER FOR MEDICAL PROGRESS; DAVID
DALEIDEN, AKA ROBERT DAOUD SARKIS,

Defendants-Appellants,
and
BIOMAX PROCUREMENT SERVICES, LLC;
TROY NEWMAN,

Defendants.
________________________
No. 17-16862
D.C. No. 3:15-cv-03522-WHO
Appeals from the United States District Court for the
Northern District of California William Horsley
Orrick, District Judge, Presiding
Before: Johnnie B. RAWLINSON,
Paul J. WATFORD, and Michelle T. FRIEDLAND,
Circuit Judges.
WATFORD, Circuit Judge:
These are consolidated appeals from a district
court order holding two sets of appellants in civil contempt for violating the court’s preliminary injunction. We conclude that we lack jurisdiction over both
appeals.

App.3a
The appeals arise out of the same set of facts.
David Daleiden attended the annual meetings of the
National Abortion Federation (NAF) in 2014 and 2015,
allegedly under false pretenses. While there, he and
agents of his organization, the Center for Medical
Progress (CMP), surreptitiously recorded their interactions with attendees. Daleiden and CMP subsequently published edited versions of those recordings
in violation of a contractual agreement with NAF.
NAF contends the edited recordings inaccurately
portrayed its members as participants in the unlawful sale of fetal remains. As a consequence of these
recordings being made public, NAF alleges, its member facilities became the targets of increased harassment, including death threats.
Shortly after publication of the recordings, NAF
filed a civil action against Daleiden and CMP in federal
district court. NAF asked the court to issue a
preliminary injunction prohibiting Daleiden and CMP
from, among other things, publishing any of the
recordings made at NAF’s annual meetings. The district
court granted the requested relief. As relevant here,
the preliminary injunction enjoins Daleiden and CMP
from “publishing or otherwise disclosing to any third
party any video, audio, photographic, or other
recordings taken, or any confidential information
learned, at any NAF annual meetings.”
Two months after entry of the preliminary injunction, the California Attorney General executed a search
warrant at Daleiden’s home as part of the State’s
criminal investigation into his activities. Daleiden
retained attorneys Steve Cooley and Brentford Ferreira
of Steve Cooley & Associates to represent him in the
anticipated criminal proceedings. The State eventually

App.4a
charged Daleiden with unlawfully recording confidential communications in a 15-count criminal complaint.
See Cal. Penal Code § 632(a).
During the course of Cooley’s and Ferreira’s representation of Daleiden, recordings covered by the preliminary injunction (which we will refer to collectively
as the “prohibited recordings”) were made available
for public viewing on the website of Steve Cooley &
Associates. A webpage announcing the firm’s representation of Daleiden prominently featured a threeminute-long “preview” video of edited footage from
the prohibited recordings. The webpage also provided
a link to a playlist of videos consisting of edited footage from the prohibited recordings that CMP had
uploaded to YouTube; anyone who clicked on the link
could freely view the videos. And finally, the webpage
provided a link to one of the firm’s court filings in
Daleiden’s criminal case, which in turn included a
link to another of CMP’s playlists on YouTube, this
one containing hundreds of videos of raw footage
from the prohibited recordings.
The videos disclosed through the Steve Cooley &
Associates website received widespread media coverage,
both through traditional and online media channels.
NAF quickly brought the publication of the videos to
the district court’s attention, and the court ordered
their immediate removal from both the website and
YouTube. NAF presented evidence that Daleiden, CMP,
Cooley, and Ferreira violated the terms of the preliminary injunction and asked the court to hold them
in contempt. In response, the court issued an order to
show cause as to why all four parties should not be
held in civil contempt.

App.5a
The court conducted a contempt hearing at which
Daleiden, Cooley, and Ferreira appeared. Each of them
refused to answer any of the court’s questions about how
the prohibited recordings wound up being accessible
for public viewing through the website of Steve Cooley
& Associates. As the basis for refusing to answer, each
of them asserted either the attorney-client privilege
or work-product protection.
In a detailed written order, the district court held
Daleiden, CMP, Cooley, and Ferreira in civil contempt.
The court found by clear and convincing evidence
that all four parties had worked in concert to violate
the terms of the preliminary injunction. As to Daleiden
and CMP, the court determined that Daleiden had
edited the videos and uploaded them to CMP’s YouTube
page. As to Cooley and Ferreira, the court concluded
that they had disseminated the prohibited recordings
on Daleiden’s behalf. The court also found that Cooley
and Ferreira were bound by the preliminary injunction because they knew of its existence and scope—
indeed, the firm’s webpage specifically referred to the
injunction and what it prohibits.
Following additional briefing and evidence, the
court issued a separate order setting the amount of civil
contempt sanctions. The court held Daleiden, CMP,
Cooley, and Ferreira jointly and severally liable to
NAF for approximately $195,000. The award compensated NAF for security costs, personnel costs, and
attorney’s fees, which the district court found were
incurred by NAF as a direct result of the violation of
the preliminary injunction.
Both sets of parties—Daleiden and CMP on the one
hand, Cooley and Ferreira on the other—filed separate
appeals from the district court’s orders imposing civil

App.6a
contempt sanctions. NAF argues that we lack jurisdiction to hear either appeal, given that final judgment has not yet been entered in the underlying civil
action. We agree and accordingly dismiss both appeals.
The analysis with respect to Daleiden and CMP
is straightforward, so we will start with them. As
parties to the underlying action, Daleiden and CMP
could obtain immediate appellate review of the district
court’s contempt order only if the court had held
them in criminal contempt. See Bingman v. Ward, 100
F.3d 653, 655 (9th Cir. 1996). If the court instead
held them in civil contempt, as it purported to do,
Daleiden and CMP would need to wait until entry of
final judgment in the underlying action to obtain
appellate review of the orders. See Fox v. Capital Co.,
299 U.S. 105, 107 (1936); Bingman, 100 F.3d at 655.
Although the label the district court affixes to sanctions
is not dispositive, see United Mine Workers v. Bagwell,
512 U.S. 821, 828 (1994), the contempt sanctions
imposed here are plainly civil in nature. The sanctions
were made payable to NAF, not the court, and they
compensate NAF only for the expenses it incurred as
a direct result of Daleiden’s and CMP’s sanctionable
conduct. See Koninklijke Philips Electronics, N.V. v.
KXD Technology, Inc., 539 F.3d 1039, 1042 (9th Cir.
2008); Lasar v. Ford Motor Co., 399 F.3d 1101, 1111
(9th Cir. 2005). The fact that the sanctions are immediately payable does not render the court’s order
appealable on an interlocutory basis. See Philips, 539
F.3d at 1045-46.
Daleiden and CMP contend that the sanctions
must be deemed criminal in nature because the district
court stated that it was imposing the sanctions in
part to deter future violations of the preliminary

App.7a
injunction. That contention is misguided for two
reasons. First, deterrence is one of the purposes
served by compensatory and punitive awards alike,
so the district court’s statement does not aid in
classifying the sanction as civil or criminal. See Bingman, 100 F.3d at 656. And second, we determine the
civil or criminal nature of a contempt sanction not by
focusing on the court’s subjective intentions, but instead
by examining “the character of the relief itself.”
Bagwell, 512 U.S. at 828 (internal quotation marks
omitted). Here, as noted, the relief awarded to NAF
is purely compensatory in nature; no aspect of the
award is punitive. That renders the sanctions civil
rather than criminal, even if one of the purposes of
the award was to deter future wrongdoing.
The jurisdictional analysis as to Cooley and
Ferreira is a little more complicated, but the end
result is the same. Because Cooley and Ferreira are
not parties to the underlying action, a civil contempt
sanction imposed against them would ordinarily be
deemed a final judgment subject to immediate appeal
under 28 U.S.C. § 1291. See Portland Feminist Women’s
Health Center v. Advocates for Life, Inc., 877 F.2d
787, 789 (9th Cir. 1989). But when there is a
“substantial congruence of interests” between the
sanctioned non-party and a party to the action, the
non-party may not immediately appeal. In re

Coordinated Pretrial Proceedings in Petroleum Products
Antitrust Litigation, 747 F.2d 1303, 1305 (9th Cir.
1984). The non-party must wait until entry of final
judgment to obtain review, just like a party to the
action would. The purpose of this rule is “to avoid
piecemeal review and its attendant delay.” Id. As we
put it in Kordich v. Marine Clerks Association, 715 F.2d

App.8a
1392 (9th Cir. 1983) (per curiam), “[w]e see no reason
to permit indirectly through the attorney’s appeal
what the client could not achieve directly on its own:
immediate review of interlocutory orders imposing
liability for fees and costs.” Id. at 1393.
The only question, then, is whether there is a
sufficiently strong congruence of interests between
the parties (Daleiden and CMP) and the non-parties
(Cooley and Ferreira) to preclude the latter from
obtaining immediate review. Such a congruence of
interests will generally exist when the liability of both a
party to the action and the non-party arises from the
same course of conduct, particularly if liability has been
imposed on them jointly and severally. See id. Allowing
the non-party to seek immediate review could require
an appellate court to resolve the same set of issues
twice: first during the non-party’s interlocutory appeal,
and again when the party to the action is able to
appeal from the final judgment. The judiciary’s interest in conserving limited resources weighs heavily in
favor of postponing appellate review until after final
judgment, at which point challenges to the sanctioned
parties’ liability can be resolved together in one fell
swoop.1
1 We have carved out one exception to this general rule, applicable
when a non-party is ordered to pay sanctions immediately to a
party who is likely insolvent. See Riverhead Savings Bank v.
National Mortgage Equity Corp., 893 F.2d 1109, 1113-14 (9th
Cir. 1990). In that scenario, the sanctions award is effectively
unreviewable on appeal from the final judgment, because the
non-party would likely not be able to get the money it paid returned
even if it were successful on appeal. Hill v. MacMillan/McGrawHill School Co., 102 F.3d 422, 424 (9th Cir. 1996). This narrow
exception, which is based on the collateral order doctrine, does
not apply here.

App.9a
The interests of Cooley and Ferreira are substantially congruent with those of Daleiden and CMP.
The district court found that Daleiden and CMP acted
in concert with Cooley and Ferreira to violate the
preliminary injunction, so the liability of all of them
arises out of the same course of conduct. In addition,
the court imposed joint and several liability, so Cooley
and Ferreira are attacking the same award imposed
against Daleiden and CMP on largely the same
grounds. In these circumstances, Cooley and Ferreira
must wait until after entry of final judgment to obtain
review of the contempt sanctions imposed against them,
just as Daleiden and CMP are required to do. See Hill,
102 F.3d at 424-25; Kordich, 715 F.2d at 1393.
Cooley and Ferreira contend that our past cases
dismissing appeals by non-party attorneys held in
contempt are distinguishable because they involved
attorneys who represented a party in the underlying
action. Here, of course, Cooley and Ferreira represent
Daleiden in the related state-court criminal case, not
in the civil action that gave rise to the preliminary
injunction. Nothing turns on that distinction, though.
The purpose of the substantial congruence rule is to
avoid duplicative appeals, and that harm would occur
whether or not the attorney found in contempt
represents a party in the underlying action. See
Cunningham v. Hamilton County, 527 U.S. 198, 209
(1999).
We dismiss these consolidated appeals for lack of
jurisdiction. As a consequence of that ruling, we also
lack jurisdiction to rule on Daleiden and CMP’s
motion requesting reassignment to a different district
judge on remand. Finally, we DENY Daleiden and
CMP’s motion for judicial notice because the materials

App.10a
brought to our attention do not bear on our jurisdiction
to hear these appeals. See Santa Monica Nativity
Scenes Committee v. City of Santa Monica, 784 F.3d
1286, 1298 n.6 (9th Cir. 2015).
DISMISSED.

App.11a
ORDER OF THE UNITED STATES
DISTRICT COURT FOR THE NORTHERN
DISTRICT OF CALIFORNIA SETTING AMOUNT
OF CIVIL CONTEMPT SANCTIONS
(AUGUST 31, 2017)
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
________________________
NATIONAL ABORTION FEDERATION,

Plaintiff,
v.
CENTER FOR MEDICAL PROGRESS, ET AL.,

Defendants.

________________________

Case No. 15-cv-03522-WHO
Before: William H. ORRICK,
United States District Judge
On July 17, 2017, I issued an order finding defendants Center for Medical Progress (CMP) and David
Daleiden and Daleiden’s criminal counsel, Steve Cooley
and Brentford J. Ferreria (respondents), in contempt
for willfully violating the clear commands of the
Preliminary Injunction Order (PI), Dkt. No. 354, by
publishing and otherwise disclosing to third-parties
recordings covered by the PI. Dkt. No. 482 at 21
(Contempt Order). In order to secure those parties’
and respondents’ current and future compliance with

App.12a
the Preliminary Injunction Order and to compensate
NAF for expenses incurred as a result of the violation
of my Preliminary Injunction Order, I held CMP,
Daleiden, Cooley, and Ferreira jointly and severally
liable for: (i) NAF’s security and personnel costs
incurred as a result of the violations of the PI; and
(ii) attorneys’ fees incurred as a result of the violations
of the Preliminary Injunction, including counsel’s
efforts to get websites to “take down” the PI materials
and the time reasonably incurred in communicating
with civil and criminal defense counsel and moving
for contempt sanctions. Id. at 22-23. As directed in
the Contempt Order, NAF has since submitted detailed
records regarding its security costs and attorneys’ fees
and costs, and defendants/respondents have objected
to those requests on both general and specific grounds.
Dkt. Nos. 484, 485, 487, 488, 489, 490.
In this Contempt proceeding, my ultimate purpose
is to consider the character and magnitude of “the
harm threatened by continued contumacy, and the
probable effectiveness of any suggested sanction in
bringing about the result desired.” United States v.
United Mine Workers of Am., 330 U.S. 258, 304 (1947).
For the reasons discussed below, I set the amount of
civil contempt sanctions to be paid jointly and severally
by CMP, Daleiden, Cooley, and Ferreira at $195,359.04,
an amount significantly less than sought by NAF but an
amount sufficient, I hope, to insure future compliance.1

1 The administrative motions to seal, Dkt. Nos. 485, 487, are
GRANTED for good cause shown.

App.13a
I.

NAF’S Costs
A. In General

As an initial matter, defendants object to the
costs NAF seeks to recover, arguing that the costs
were not “reasonably” incurred and are not recoverable
under NAF’s breach of contract claim (the only claim
NAF asserted in support of the PI). Defendants’
Objections (“Objs.”) [Dkt. No. 487-3] at 7-14.2 Similar
arguments were raised in defendants’ response to the
OSC and rejected when I issued the Contempt Order.
See Dkt. No. 434 at 9-13. Briefly, because the purpose
of the civil contempt sanctions is to compensate NAF
for the expenses incurred and to encourage defendants
and respondents to abide by the PI going forward,
the NAF costs that I include in the civil contempt
sanctions award do not have to be damages that would
flow from the underlying breach of contract claim. As
to “reasonably incurred,” I have already considered
this in connection with the Contempt Order and conclude that, in general, the costs NAF seeks to recover
were reasonably incurred in response to the violations of the PI Order.
B. Specific Costs
According to the Declaration of Melissa Fowler,
NAF seeks to recover four categories of costs. First,
security costs paid to outside vendors amounted to
$28,176.62, incurred to: (i) uncover and monitor threats
made in response to the Preview video and release of
PI materials; (ii) complete related research; and (iii)
2 Respondents Cooley and Ferreira join defendants’ objections.
Dkt. No. 490.

App.14a
provide personal security services at a NAF-member
clinic to a physician featured in the Preview video.
Fowler Decl. ¶¶ 3, 4, 6 & Exs. A, C-1, C-2. Second,
NAF incurred travel costs of $397.40 to send security
staff to conduct an on-site assessment. Id. ¶ 5, Ex. B.
Third, it absorbed personnel costs in the amount of
$29,417.96 for staff time diverted from normal duties
to address and respond to the disclosures of PI
materials. Fourth, it also absorbed “other costs” in
the amount of $6,327.56 for staff travel and meal expenses.
As to the monitoring and research costs ($5,150
and $1,282.50), I conclude that those costs were reasonably incurred and necessarily related to the disclosure of the PI materials. Similarly, the travel expenses ($397.40) were reasonably incurred and necessarily related to the disclosure of PI materials. As to
the personnel costs ($29,417.96), I find that the
monitoring done and additional security issues
addressed by staff identified in the Fowler Declaration
are compensable and were reasonably incurred and
necessarily related to the disclosure of the PI materials.
The attendance at the Contempt hearing by three NAF
staff members is also reasonable and compensable,
as in-person testimony may have been (although in
the end was not) necessary. The $6,327.56 in “other
costs” including travel time for the three staff to
attend the Contempt hearing are reasonable and were
necessarily incurred.
However, I will not include the costs incurred by
a NAF-member clinic for security ($21,744.12) as
part of the civil contempt sanctions award. In the

App.15a
Contempt Order, I limited the sanctions to “NAF’s
security costs.”3
Therefore, NAF’s costs in the amount of $42,575.42
are included in the civil contempt sanctions award.
II.

Attorney’s Fees and Costs

NAF seeks compensation for $280,482.00 in
attorney time and $7,297.95 in costs incurred as a
result of the violation of the PI. Dkt. No. 484 at 5.
A. Hourly Rate
Defendants object to the hourly rates requested
by NAF’s counsel, arguing that the requested rates
have not been adequately supported by declaration or
citation to cases approving those rates for similarly
situated counsel. Defendants suggest, instead, that
NAF’s counsel should be compensated at the Laffey
matrix rates, adjusted upwards by eight percent to
account for San Francisco’s higher costs. Objs. at 2.4
As an initial matter, neither side addresses
whether case law applicable to statutory fee awards
applies in the context of setting sanctions for violation
3 I am not reaching any conclusion that a NAF-member clinic is
or is not entitled to damages flowing from the underlying
action. In addition to the limitation in the Contempt Order cited
above, my primary task here is not to determine whether the
NAF-member security costs were proximately caused by the
actions of respondents, but to weigh the character and magnitude of
threatened continued harm with the probable effectiveness of
the sanction in order to secure compliance.
4 Defendants also object to the characterization of the years of
counsels’ practice, instead relying on the NAF attorneys’ dates
of bar admission to set their “years” of practice. Dkt. No. 487-3 at 3.

App.16a
of a Court order. I will assume that case law applies.
In that context, “[t]he burden is on the fee applicant
to produce evidence ‘that the requested rates are in
line with those prevailing in the community’” and
“[i]n general, ‘[a]ffidavits of the plaintiffs’ attorney
and other attorneys regarding prevailing fees in the
community, and rate determinations in other cases,
particularly those setting a rate for the plaintiffs’
attorney, are satisfactory evidence of the prevailing
market rate.’” Hiken v. Dep’t of Def., 836 F.3d 1037,
1044 (9th Cir. 2016) (quoting Camacho v. Bridgeport
Fin., Inc., 523 F.3d 973, 980 (9th Cir. 2008) and Blum v.
Stenson, 465 U.S. 886, 895 n.11 (1984)).
NAF’s counsel have not justified their requested
rates in reference to fee awards in other cases or with
affidavits demonstrating that the requested rates are
reasonable for similarly situated attorneys in similar
practice areas. Hiken v. Dep’t of Def., 836 F.3d at 1044
(the “reasonable rate should generally be guided by
the rate prevailing in the community for similar
work performed by attorneys of comparable skill, experience, and reputation.” (internal quotation omitted)).
And at the same time, I have serious concerns about
using rates based on the Laffey matrix. As I and
other courts in this District have recognized, “[a]bsent
some showing that the rates stated in the matrix are
in line with those prevailing in this community . . . the
matrix is not persuasive evidence of the reasonableness of its requested rates.” Public.Resource.org v.
United States Internal Revenue Serv., No. 13-CV02789-WHO, 2015 WL 9987018, at *6 (N.D. Cal. Nov.
20, 2015). Defendants have made no showing that
their suggested rates (the matrix plus 8%) are in line

App.17a
with the rates prevailing in this community for the
legal work at issue.
Given that I lack any other evidentiary basis to
set the rates, and that using higher rates would cause
the sanctions to exceed the amount probably necessary
to bring about compliance with the PI Order going
forward, under these unique circumstances I will adopt
the rates for counsel suggested by defendants; matrix
plus 8%. I am not finding that the Laffey matrix rates
are in line with what experienced attorneys in similar
practices in the San Francisco area charge or have
been awarded in statutory fee cases, and I recognize
that reasonable attorney rates for similarly situated
counsel are undoubtedly higher than those based off
of the matrix. The rates awarded here will not serve
as any precedent that I will use for fees awarded in
the future in this case or any other. The two paralegals
shall be compensated at a rate of $210/hour, a rate
slightly higher than I have approved for experienced
paralegals in the past. See, e.g., James v. AT&T West
Disability Benefits Program, Case No. 12-6318,
December 22, 2014 Order (awarding $195/hour). The
rates approved are as follows:
Attorney/Paralegal Requested Rate

Approved
Rate

Derek Foran

$910/Partner/April $503
2003 admission

Marc Hearron

$885/Partner/Nov.
2015 admission

$503

Maggie Mayo

$785/9th yr/Dec.
2008 admission

$427

Christopher L.

$785/9th yr/Dec.

$427

App.18a
Robinson

2008 admission

Nicholas A.
Roethlisberger

$695/6th yr/Dec.
2011 admission

$359

Lena Hughes

$650/5th yr/2013
admission

$359

Alexandra E.S.
Laks

$600/4th yr/Dec.
2013 admission

$348

Randy D. Zack

$540/3rd yr/Dec,
2014 admission

$348

Tom Beyer

$360/Sr Paralegal

$210

Priscilla
Fernandez

R. $300/Paralegal

$210

B. Reasonable Hours
Defendants also complain about the reasonableness
of the hours expended by NAF’s counsel, arguing that
hours should be cut for various reasons.5
1. Duplicative Time
Defendants argue that over 85 hours should be
cut because the time billed was duplicative and

5 According to the Declaration of Derek Foran, Foran made various
reductions in the hours incurred by his firm to account for any
duplication and significantly reduced his own time. Foran Decl.
¶¶ 13, 15. Foran also did not include the time incurred by more
senior attorneys James J. Brosnahan and Linda Shostak. Id.
¶ 16. Those reductions eliminated 273 hours and $160,200 (as
calculated using plaintiffs’ proposed rates) in attorney time. Id.
¶ 17.

App.19a
unnecessary.6 As an example, defendants object to
NAF seeking compensation for the time spent by four
attorneys to prepare for and attend the July 11, 2017
Contempt hearing. Objs. at 5. I have reviewed the
hours challenged as duplicative and conclude that
the majority of the contested hours were not duplicative
or unnecessary. As the time entries show, while a
number of attorneys worked on the pleadings, many
handled/researched different topics or had different
backgrounds (appellate specialty, sixth amendment
focus, etc.).
However, I agree in part with defendants that
two of the attorneys’ time spent preparing for an
attending the contempt hearing was unnecessary (Laks
and Robinson), but leave the time of the two other
attorneys (Foran, who argued and Roethlisberger, who
drafted significant parts of the relevant pleadings).
Therefore, 3.6 hours of Laks’ time should be deducted
and 2.5 hours of Robinson’s time should be deducted.
2. Time Spent “Conferring”
Defendants also challenge time counsel spent
conferring and seek to cut 14 hours for those time
entries. However, the majority of the challenged entries
are for time counsel spent conferring with their client,
a necessary part of their representation. The remainder
of the challenged time entries are of limited time
spent by the attorneys directing the research and
briefing that needed to be completed. No time will be

6 Some of the allegedly duplicative hours (coded blue) are also
challenged as paralegal work (coded pink) or work on the challenged
reply brief or request for attorneys’ fees (coded yellow).

App.20a
reduced because there was no unnecessary or excessive
conferring.
3. Time Spent on Clerical or Paralegal
Tasks
Defendants challenge approximately 20 hours of
time billed by attorneys that they contend should be
charged at a paralegal rate given the clerical nature
of the tasks. I have reviewed the challenged entries
and while it is not very clear, the majority of the
challenged time was for attorney Roethlisberger’s “review, revise, and file” or “review, revise, and supervise
filing” entries. The vast majority of that time, presumably, was spent on reviewing and revising, and not
filing or supervising filing. However, I will reduce the
Roethlisberger hours by 2 hours to account for any
paralegal work.7
4. Time Spent on Preparing the Application
for Attorney’s Fees and Costs
Defendants challenge the time NAF’s counsel spent
preparing its and NAF’s declarations in support of
fees and costs, arguing that if I do not grant NAF’s
full request (of $280,482.00), then somehow NAF should
not be compensated at all for the time spent seeking
fees. Objs. at 4. The case law relied on by defendants
does not support their argument. Id.8 This time is
7 The other challenged entry is by attorney Laks who billed on
5/30/17 for reviewing and adding exhibits and citations in a
motion. From the context of the entry, I find that this work is
compensable attorney time.
8 For example in Comm’r, I.N.S. v. Jean, 496 U.S. 154, 163
(1990), the Supreme Court recognized that “if the Government’s
challenge to a requested rate for paralegal time resulted in the

App.21a
reasonable, although as discussed below, it will be
excluded from the sanctions amount for other reasons.
5. Time Spent on Motion to Disqualify that
was Inadvertently Included
Defendants challenge time that was apparently
spent on the motion to disqualify heard by Judge
Donato. NAF meant to exclude all of this time, but
apparently failed to exclude 0.5 hours billed by Beyer
on June 12, 2017. This time is excluded.
6. Time Spent on Unauthorized “Reply”
Finally, defendants challenge the time NAF’s
counsel spent on the reply brief, arguing that it was
not originally allowed by the Court (because no time
frame for filing a reply was provided in the initial
OSC). However, I granted NAF’s request to file the
reply brief. Dkt. No. 468. This time is compensable.
In sum, other than the few discrete examples
identified above, the time spent is reasonable. However,
the purpose of the imposition of civil contempt sanctions
is both to compensate NAF as a result of defendants’
and respondents’ contempt and to encourage defendants
and respondents to adhere to the PI going forward.
As part of that analysis, I consider the character and
magnitude of “the harm threatened by continued
contumacy, and the probable effectiveness of any
suggested sanction in bringing about the result desired.”
United States v. United Mine Workers of Am., 330 U.S.
court’s recalculating and reducing the award for paralegal time
from the requested amount, then the applicant should not
receive fees for the time spent defending the higher rate.” But
here there has been no time expended “defending a higher rate”
because no reply on the amount of fees was allowed.

App.22a
258, 304 (1947). In line with that consideration, I will
not include as sanctions the amount of time NAF’s
counsel spent compiling and submitting the fee
declarations. While the time spent on the fee declarations was reasonable, I do not find that including this
additional time in the amount of sanctions awarded will
serve any further deterrent purpose. Therefore, none
of the 15.90 hours spent on the fees application will
be included.
The sum of attorneys’ fees reasonably incurred
by NAF in response to the violations of the PI Order
and included as part of the civil sanctions award is
$148,967.90.
C. Costs
Defendants object to NAF’s counsel’s request for
$7,297.95 in costs, arguing first that there is no explanation for the line item in the cost bill for $3,482.23 in
costs. Objs. at 7; Foran Decl., Ex. 2 [ECF Dkt. No.
484-2 pg. 5]. There is no explanation for the $3,482.23
charge, and it appears to be a subtotal of the prior
costs. The total amount of costs incurred, according
to the line items included in Exhibit 2 is $3,815.72.
Of that amount, defendants challenge the outside
copying and color copying costs. However, color copies
were submitted to the court in conjunction with the
opening motion and the reply and the number of copies
made is not excessive. Therefore, the $3,815.72 in
reasonable costs incurred is included as part of the
civil sanctions award.

App.23a
CONCLUSION
For the foregoing reasons, the amount of civil sanctions is set at $195,359.04. In setting this amount, I
have considered the magnitude of “the harm threatened
by continued contumacy, and the probable effectiveness of any suggested sanction in bringing about the
result desired.” United States v. United Mine Workers
of Am., 330 U.S. 258, 304 (1947). CMP, Daleiden,
Cooley, and Ferreria are jointly and severally liable for
this amount to be paid to NAF.
IT IS SO ORDERED.
/s/ William H. Orrick
United States District Judge
Dated: August 31, 2017

App.24a
ORDER OF THE UNITED STATES
DISTRICT COURT FOR THE NORTHERN
DISTRICT OF CALIFORNIA
(JULY 17, 2017)
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
________________________
NATIONAL ABORTION FEDERATION,

Plaintiff,
v.
CENTER FOR MEDICAL PROGRESS, ET AL.,

Defendants.

________________________

Case No. 15-cv-03522-WHO
Before: William H. ORRICK,
United States District Judge
Based on the evidence before me, the record in
this case, the failure of defendant Center for Medical
Progress (CMP), defendant David Daleiden, respondent
Steve Cooley and respondent Brentford J. Ferreira to
provide sufficient evidence in response, and for the
reasons discussed below, I HOLD CMP, Daleiden,
Cooley, and Ferreira in CIVIL CONTEMPT for multiple
violations of the February 5, 2016 Preliminary
Injunction (PI). As detailed below, these individuals
and the entity willfully violated the clear commands

App.25a
of the PI by publishing and otherwise disclosing to
third-parties recordings covered by the PI.1
BACKGROUND
I.

Preliminary Injunction

The parties and respondents are familiar with the
factual and procedural history of this case. Significant
to the issue of contempt, on February 5, 2016, I
entered a preliminary injunction (affirming a prior
existing Temporary Restraining Order), mandating
the following:
Pending a final judgment, defendants and
those individuals who gained access to NAF’s
2014 and 2015 Annual Meetings using aliases
and acting with defendant CMP (including
but not limited to the following individuals/
aliases: Susan Tennenbaum, Brianna
(1) Allen, Rebecca Wagner, Adrian Lopez, and
Philip Cronin) are restrained and enjoined
from: publishing or otherwise disclosing to
any third party any video, audio, photographic, or other recordings taken, or any
confidential information learned, at any
NAF annual meetings;
(2) publishing or otherwise disclosing to any third
party the dates or locations of any future
NAF meetings; and

1 The motions to seal, Docket Nos. 416, 433, 437, 442, 462, and
470 are GRANTED as compelling reasons justify the continued
sealing of the materials at issue.

App.26a
(3) publishing or otherwise disclosing to any
third party the names or addresses of any
NAF members learned at any NAF annual
meetings.
Preliminary Injunction [Dkt. No. 354] at 42. The PI was
affirmed by the Ninth Circuit. National Abortion
Federation v. Center for Medical Progress, 2017 WL
1164450 (9th Cir. March 29, 2017).2
II.

Criminal Investigation and Complaint

On April 5, 2016, the California Attorney General
executed search warrants and seized Daleiden’s
computers and devices containing materials covered
by the PI. Foran Decl., Ex. A. (Affidavit in Support of
Arrest Warrant). A few days later, Daleiden retained
Steve Cooley and Brentford J. Ferreira of Steve Cooley
& Associates (SCA) to represent him in any criminal
proceedings. On April 15, 2016, NAF’s counsel sent a
letter to the California Attorney General, notifying
the AG that the seized materials are covered by the
PI in this case. In July 2016, Ferreira and Deputy
Attorney General (DAG) Johnette Jauron meet with the
Honorable Terri Jackson of the San Francisco Superior
Court to consolidate proceedings related to the search
warrants and venue them in San Francisco. During that
meeting, Presiding Judge Jackson ordered the DAG to
provide all seized evidence to SCA so that SCA could
review the evidence for materials that were privileged
in connection with this civil case.

2 Defendants may seek certiorari with the United States Supreme
Court; the time for filing a petition for a writ of certiorari has
not yet run.

App.27a
On March 28, 2017, the California Attorney
General’s Office issued a press release that it had
filed a criminal complaint against Daleiden and Sandra
Susan Merritt. Foran Decl., Ex. A. (Criminal Complaint). The Criminal Complaint alleges that Daleiden
and Merritt illegally tape recorded 14 “Does” on various
dates in California, the majority of which occurred
during NAF’s 2014 Annual Meeting in San Francisco.
See generally Criminal Complaint. On the same day
as the announcement, the Hon. Carol Yaggy of San
Francisco Superior Court sealed the declaration in
support of the arrest warrant. Id.
On May 3, 2017, Daleiden was arraigned and the
Criminal Complaint was filed with Judge Yaggy’s
sealing order. On the same day, SCA filed a demurrer
challenging the sufficiency of the Criminal Complaint
on behalf of Daleiden. Foran Decl., Ex. D (Demurrer).
Footnote 1 of the Demurrer contained a link to a
YouTube “playlist” containing 337 videos “published”
by CMP and labelled “San Francisco Superior Court
Defense Filing.” Foran Decl., Ex. E (“Defense Filing”
playlist).3 The Demurrer was accompanied by a Request
for Judicial Notice (RJN) asking the Superior Court
to take notice of the videos under California Evidence
Code § 452. Foran Decl., Ex. F. Exhibit 1 to the RJN
included the same YouTube link to the Defense Filing
playlist as Footnote 1. Foran Decl. ¶ 13. 334 of the
videos “published” by CMP in the YouTube Defense
Filing playlist were recordings included within the
scope of the PI. Foran Decl., ¶ 12. Videos 4 through
336 contain raw unedited footage taken by Daleiden
3 The full title of the playlist is “San Francisco Superior Court
Defense Filing” and the last updated date is May 3, 2017. Ex. E.

App.28a
at NAF’s Annual Meetings in San Francisco and
Baltimore. Id. & Ex. E.4
SCA did not seek to seal Footnote 1 of the Demurrer or Exhibit 1 to the RJN. Foran Decl., ¶ 13. The
Defense Filing playlist link was described by SCA as
“private” in the Demurrer, but anyone could use that
link to access the playlist. Foran Decl., ¶ 12. A flash
drive containing the same videos was also submitted
to the Superior Court on May 3, 2017. Demurrer,
Footnote 1.5
On May 16, 2017, the DAG sent SCA a thumb
drive containing just over 20 excerpts of videos that
were the basis of the Criminal Complaint. The thumb
drive was password protected.
III. Further Publishing and Disclosure of PI Materials
Also on May 3, 2017, another video was uploaded
to CMP’s YouTube channel. This 3 minute and 9 second
video was titled “Preview.” Foran Decl., Ex. G. It was
marked as “private/unlisted” so members of the public
could not (yet) know it was there. Foran Decl. ¶ 14.
The Preview video contains fifteen “clips” or segments,
all or substantially all of which were taken at NAF’s
2014 and 2015 Annual Meetings in San Francisco and
Baltimore and covered by the PI. Foran Decl. ¶ 4.
4 Video 337 is the Preview video discussed below.
5 The flash drive was maintained by the Hon. Christopher Hite
(the judge assigned to the criminal proceedings) and was not
accessible by the public. Foran Decl. ¶ 12. In the June 21, 2017,
hearing on Daleiden’s Demurrer, Judge Hite declined to take
judicial notice of the videos and ordered the flash drive be
removed from the court’s docket. Foran Reply Decl., Ex. C
(Transcript of June 21, 2007 hearing) at 5:27-6:5.

App.29a
The video features CMP’s logo and website in the
bottom right corner and identifies the titles and
affiliations/locations of eleven NAF members. Foran
Decl. ¶ 5. The video concludes with a request for
viewers to “share” the video, to “hold Planned
Parenthood accountable for their illegal sale of baby
parts” and “to learn more at centerformedicalprogress.
org.” Id. Only seven of the eleven NAF members
identified in the Preview video are Does in the
Criminal Complaint. Transcript of July 11, 2017
Hearing at 42:1-4.
Between May 12 and May 24, 2017, a further 2
hours and 9 minutes of PI materials were uploaded
to CMP’s YouTube channel. Foran Decl. ¶¶ 9-10. These
14 videos were taken at NAF’s Annual Meetings in San
Francisco and Baltimore, and are excerpts of recordings
of each of the Does from the Criminal Complaint. Foran
Decl. ¶ 10. The videos, plus three others not covered
by the PI, were collected into a playlist titled “San
Francisco Superior Court Defense Filing—Accusers.”
Foran Decl., Ex. C (hereafter “Accusers” playlist).
The videos and playlist were marked as private/
unlisted. Foran Decl. ¶ 9.
On May 24, 2017, at 8:43 p.m. Eastern Standard
Time (“EST”), the online blog “The Next Right Step”
published a “Breaking News” story that referred to
SCA’s launch of a media resource page regarding SCA’s
representation of Daleiden. Foran Decl., Ex. H; Second
Supp. Foran Decl., Ex. A. The story provided links to
the SCA “Media Page” and includes links to the
Criminal Complaint, Demurrer, RJN, and all the video
footage “referenced” in the Criminal Complaint. Id.,
Ex. H. On May 25, 2017, at 12:01 a.m. EST, the Preview
video was published on the National Review website.

App.30a
Foran Decl., Ex. J; Foran Second Supp. Decl., Ex. B.
The video was embedded on the site and described as
a “shocking new video” “from The Center for Medical
Progress.” Id. The National Review website also linked
to SCA’s Media Page where “all the video footage”
referenced by the California Attorney General’s office
“can be found.” Id. At 5:47 a.m. EST, the Susan B.
Anthony list published the Preview video on Twitter,
also describing it as a “shocking new video” attributed
to CMP. Foran Decl., Ex. L. Then at 8:15 a.m. EST,
the Preview video was published by another Twitter
user. Foran Decl., Ex. N.
At some point on May 25, 2017, SCA’s Media Page
went live and was accessible to the public from the
SCA website. Foran Decl. ¶ 4. NAF’s counsel declares
on information and belief that the page went live in
“the early hours” of May 25, 2017. Id. The first thing
on the SCA Media Page is an embedded copy of the
Preview video. Foran Decl., Ex. B. The Media Page
goes on to announce SCA’s representation of Daleiden
and acknowledges the existence of the Preliminary
Injunction “preventing David from posting any videos
taken at the 2014 and 2015 NAF conventions.” Id. The
SCA Media Page then linked to the Demurrer and RJN
(and Exhibit 1), from which readers could see the
“private” YouTube link and get to the CMP “Defense
Filing” playlist, allowing access to the 337 videos
(including the 144 hours of raw footage from the NAF
San Francisco and Baltimore conferences). Foran Decl.
¶ 11. The 14 Does from the Criminal Complaint were
also identified on the SCA Media Page. Id. Finally,
viewers were provided a link to access the Accusers
playlist containing the “video-recordings related to

App.31a
interviews” with the Does. Id.; see also Foran Decl.
¶ 9.
IV. Take Down Order
NAF’s counsel became aware of the disclosures
of the PI material around 8:30 a.m. on May 25, 2017,
and immediately contacted defense counsel in this
civil case, demanding immediate removal of the
materials from YouTube and SCA’s website. Foran
Decl., ¶ 22 & Ex. O. Shortly thereafter, NAF’s counsel
contacted SCA and likewise demanded removal of all
PI materials. Foran Decl., ¶¶ 23-24 & Ex. P. NAF then
alerted me to the disclosures. I set a telephonic
hearing for 4:00 p.m. Pacific Standard Time that day.
Dkt. No. 408. Shortly before the 4:00 p.m. telephonic
hearing, YouTube blocked access to the links on its
site. Foran Decl. ¶ 26.
During the telephonic conference, I directed the
parties that the links to PI materials on the SCA
website and YouTube should “be taken down within the
next 15 minutes, if they haven’t been taken down
already.” May 25, 2017 Transcript [Dkt. No. 413] at
6:12-15:11:23-24. Shortly after the hearing, but before
my written Order was issued, the list of “Doe” names
and the Preview video were removed from the SCA
website. Foran Decl. ¶ 28. The links to the YouTube
playlists, however, remained. Id.
At 5:24 p.m. on May 25, 2017, my Order Directing
Compliance with Preliminary Injunction and Order to
Show Cause re Contempt was filed. Dkt. No. 409. Under
that Order:
To protect the integrity of the Preliminary
Injunction and given the significant privacy

App.32a
concerns at stake, Daleiden is hereby
ORDERED to require his counsel—Steve
Cooley and Brentford J. Ferreira of Steve
Cooley & Associates and all those working
with or for his counsel—IMMEDIATELY to
take down from their website all links to
recordings covered by the Preliminary
Injunction and remove all references to the
identities of any NAF members who were
subjects of the recordings covered by the
Preliminary Injunction. Daleiden and his
counsel are also ORDERED IMMEDIATELY to undertake all efforts to remove from
YouTube the recordings covered by the Preliminary Injunction. If Daleiden, his counsel,
or any defendant in this action or their
counsel has caused any of the information
covered by the Preliminary Injunction to be
published or posted in any other manner
since entry of the Preliminary Injunction,
they are ORDERED IMMEDIATELY to take
it down.
May 25, 2017 Order at 2. However, the links to YouTube playlists remained on the SCA Media Page
through May 26 and 27. Foran Decl. ¶ 28. The SCA
media page was taken down sometime over the
following weekend. Id.6
6 In declarations submitted after the OSC re Contempt Hearing,
Cooley and Ferreira declare that the PI materials were “taken
down at approximately 4:55 p.m. on May 25, 2017.” Dkt. Nos.
477, 478, ¶ 3. Cooley goes on to declare that he hired a
computer forensic firm, and the research that firm conducted
made it “reasonable to conclude” that the SCA Media Page was
“removed sometime between 5/25/2017 and 5/26/2017.” Dkt. No.

App.33a
V.

Additional Dissemination of the PI Materials

Despite the blocking on YouTube, and the belated
actions of SCA in removing the Preview video, Doe
names, and eventually the YouTube links, the PI
materials were accessed and shared by numerous third
parties. In one instance, the 144 hours of the raw
footage were loaded to a site for public viewing (that
site was subsequently blocked through NAF’s efforts).
Foran Decl. ¶ 31. The Preview video—containing excerpts of PI material and disclosing the names of the
NAF members shown—was posted on Facebook and
viewed more than 469,000 times and shared 13,400
times. Foran Decl., ¶¶ 33-34 & Ex. V.
VI. NAF’S Response
After being alerted to the disclosures, NAF placed
its security team on “high alert.” Declaration of
Senior Director of Security Gannon in Support of NAF’s
Response to Order to Show Cause re Contempt [Dkt.
No. 416-4] ¶ 3. NAF immediately contacted all of the
members shown or mentioned in the Preview video or
disclosed as a Doe on SCA’s website to advise them of
the situation and encourage them to take precautions
to ensure their safety. Gannon Decl. ¶ 3. NAF’s outside
security firm was asked to monitor social media
platforms for threats made against any of its members
who appeared in the Preview video, as well as any of
the identified Does. Id. Within one hour, NAF’s outside
security firm reported back, detailing a number of
478-1, ¶ 7. However, neither Cooley nor Ferreira—who presumably
have knowledge about their own website, and who admit to
posting the Media Page in the first instance—provide any
evidence as to when the Media Page came down.

App.34a
what it considered threats; defendants characterize
them as merely rhetoric. Id. ¶ 4.
The monitoring by NAF and its outside security
firm has confirmed that since May 25th, NAF and its
members whose identities were disclosed in the Preview
video and on SCA’s website have seen a sharp increase
in “negative and disturbing” threats. Id. ¶ 8; see also
Gannon Supp. Declaration [Dkt. No. 462-9] ¶¶ 2-4.7
For example, one NAF member shown in the “Preview”
video received direct written communications just hours
after it was published calling them “evil,” “a baby
killer,” and a “systematic murderer.” Gannon Decl.
¶ 6. Another NAF member’s image—utilizing a headshot from the “Preview” video—has been circulating
online and generating comments that caused the
NAF member to hire a private security firm to drive
them to and from work and caused other disruptions
to their and their families lives. Id. ¶ 7.
NAF security personnel have met with other NAF
members and members of their families to monitor and
provide recommendations on their security. Id. ¶ 9. It
was forced to divert both internal and outside consultant staff from other projects to work on monitor7 Daleiden and CMP object to Paragraph 4 of the Gannon
Supplemental Declaration—discussing the threats a NAF-member
physician identified in the Preview video received—as hearsay
and lacking personal knowledge. Objections [Dkt. No. 469]. The
personal knowledge objection is OVERRULED. The hearsay
objection is sustained in part as to the quoted threats, but
OVERRULED as Gannon’s understanding that specific threats
were made to the physician. Daleiden and CMP also object as
hearsay to news reports attached as Exhibit A and B to the
Supplemental Foran Declaration. Id. I have not considered
those news reports in reaching my conclusion as to contempt
and remedy. Therefore, those objections are OVERRULED as moot.

App.35a
ing and responding to the disclosure of the PI information. Gannon Decl. ¶¶ 3, 10; Gannon Supp. Decl.
[Dkt. No. 462-9] ¶¶ 2.
According to NAF’s Senior Director of Communications & Membership, as of June 1, 2017, NAF
had incurred $1,568.26 in direct security costs to fly
a member of their Security Staff to conduct security
reviews of the home and office of a NAF member
shown in the Preview video. Fowler Decl. ¶ 3. Through
June 30, 2017, NAF diverted approximately $26,000
in staff time from regular tasks as a result of the disclosures, assigning those staff to monitor and respond
to threats and conduct research into threats related
to the disclosures. Supplemental Fowler Decl. ¶ 4
[Dkt. No. 462-5] ¶ 4. An additional $1,282.50 has been
incurred for outside consultant staff. Id. & Ex. B.
One NAF member facility has been invoiced for
direct security costs of $11,411.92 to provide armed
security for a physician featured in the Preview
video. Id. ¶ 5 & Ex. C.
Finally, as of the close of business on Wednesday,
May 31, 2017, attorney fees incurred on behalf of NAF
as a result of the disclosures amount to $96,610.50.
Foran Decl. ¶ 35.
VII. OSC Re Contempt Hearing
Prior to the OSC re Contempt Hearing, I issued
an order identifying the timeline of pertinent events
relevant to the OSC hearing. The defendants and
respondents offered no material disagreement to the
timeline or the evidence offered by NAF. I also posed
questions that I intended to ask of civil defense
counsel, criminal defense counsel, and Daleiden. July

App.36a
10, 2017 Order Concerning OSC Hearing [Dkt. No. 468].
The questions were:
[For] Ms. Short, Mr. LiMandri, and the other
Civil Case Defense Counsel:


When did you first become aware of the
existence of the “Preview” Video? How?



When did you first become aware of the
existence of the “Defense Filing” playlist videos
on CMP’s YouTube channel? How?



What steps did you take to comply with my May
25, 2017 Order requiring all efforts be made to
take down links to the Preliminary Injunction
materials?

[For] Messrs. Cooley & Ferreira:


When did you receive the Preview Video or a
link to the Preview Video? From whom?



When did you receive a link to the “Defense
Filing” playlist hosted on CMP’s YouTube
channel? From whom?



When did you receive a link to the 144 hours of
raw footage hosted on CMP’s YouTube channel?
From whom?



When exactly did the Steve Cooley & Associates
“Media Page” about your defense of David
Daleiden become accessible to the public through
the SCA website? Who took the steps to make
that page accessible to the public?



When did you become aware of my May 25, 2017
Order requiring all efforts be made to take down
links to the Preliminary Injunction materials?

App.37a
What steps did you undertake to comply with
that Order?
[For] Mr. Daleiden:


Did you have any role in creating the Preview
video? When was it created? Did you upload the
Preview video to CMP’s YouTube channel?
When was it uploaded? Have you shared the
Preview video in any way (i.e., by sharing a link
or sharing the actual video file) with others
since its creation?



Who has “administrator” access to/can post
material on CMP’s YouTube channel?



Did you have any role in creating/editing the
video excerpts included in the “Defense Filing”
playlist on CMP’s YouTube channel? Did you
upload those videos to CMP’s YouTube channel?
When?



What steps did you personally take to comply
with my May 25, 2017 Order requiring all efforts
be made to take down links to the Preliminary
Injunction materials?

Dkt. No. 468 at 3-4.
At the July 11, 2017 hearing on the OSC re Contempt, the civil case defense counsel refused to
answer any of the questions on the basis of the attorneyclient privilege.8 Criminal defense counsel Cooley
8 While Attorney Matthew Heffron initially stood up and on
behalf of “all civil defense counsel” asserted the attorney-client
privilege as a basis to refuse to answer any of my identified
questions, Attorney Paul Jonna subsequently stood up and read
out a “statement” from Attorney Charles LiMandri. That statement
provided some answers and arguable defenses to contempt with

App.38a
and Ferreira also asserted the attorney-client privilege
as the basis for refusing to answer the first four sets
of my questions. As to the fifth set of questions (“When
did you become aware of my May 25, 2017 Order
requiring all efforts be made to take down links to the
Preliminary Injunction materials? What steps did
you undertake to comply with that Order?”), Cooley
and Ferreira both asserted the attorney work-product
doctrine in addition to attorney-client privilege, refusing
to answer those questions as well. Finally, Daleiden
asserted the attorney-client privilege and refused to
answer any of the four sets of questions I posed to
him. As a back up, his counsel also indicated that
Daleiden could also take the Fifth Amendment to
decline to answer the questions.
In declarations submitted after the OSC re Contempt Hearing on July 14, 2017, Cooley and Ferreira
declare that the PI materials were “taken down”
from YouTube and remote hosts within their control
at approximately 4:45 p.m. on May 25, 2017, as confirmed by their computer forensic firm. Dkt. Nos.
477, 478 & 478-1. Neither Cooley nor Ferreira say
who took down that material. Nor do they provide any
information about who posted the information to
respect to the civil defense counsel. See Transcript of July 11, 2017
hearing at 16:11-20:5. However, to the extent my questions called
for attorney-client information (and most did not), LiMandri’s
statement arguably waived any properly asserted privilege. See,
e.g., id. at 18:14-22 (“During the May 25th teleconference with
the Court, Your Honor ordered us to instruct specific persons to
remove the YouTube links to the videos within 15 minutes. It’s
our understanding that any links posted by those persons the
Court asked to us contact were, in fact, removed within 15
minutes. The civil defense counsel confirmed that all the videos
we knew and were informed about on YouTube were down.”).

App.39a
their Media Page, when their Media Page went live,
when their Media Page was taken down, or who did
any of those acts.
LEGAL STANDARD
Civil contempt “consists of a party’s disobedience
to a specific and definite court order by failure to
take all reasonable steps within the party’s power to
comply.” In re Dual-Deck Video Cassette Recorder
Antitrust Litig., 10 F.3d 693, 695 (9th Cir. 1993). “A
party may also be held liable for knowingly aiding
and abetting another to violate a court order.” Inst. of
Cetacean Research v. Sea Shepherd Conservation Soc’y,
774 F.3d 935, 945 (9th Cir. 2014) (citing Regal Knitwear
Co. v. NLRB, 324 U.S. 9, 14 (1945)). “As a result, a
party to an injunction who assists others in performing
forbidden conduct may be held in contempt, even if
the court’s order did not explicitly forbid his specific
acts of assistance.” Id. at 948.
As the party alleging civil contempt, NAF must
demonstrate that the alleged contemnors violated my
Preliminary Injunction by “clear and convincing
evidence” and not merely by a preponderance of the
evidence. Id. Once the moving party makes that
showing, the burden then “shifts to the contemnors
to demonstrate why they were unable to comply.” FTC
v. Affordable Media, LLC, 179 F.3d 1228, 1239 (9th
Cir. 1999).
“Whether a contempt sanction is civil or criminal
is determined by examining ‘the character of the
relief itself.’” Ahearn ex rel. N.L.R.B. v. Int’l Longshore & Warehouse Union, Locals 21 & 4, 721 F.3d
1122, 1129 (9th Cir. 2013) (quoting Int’l Union, United
Mine Workers of Am. v. Bagwell, 512 U.S. 821, 828

App.40a
(1994). As “the Supreme Court explained, [] a sanction
generally is civil if it coerces compliance with a court
order or is a remedial sanction meant to compensate
the complainant for actual losses.” Id. “A criminal
sanction, in contrast, generally seeks to punish a
‘completed act of disobedience.’” Id. (quoting Bagwell,
512 U.S. at 828).
As I noted in the Order Concerning OSC Hearing
and explain in more detail below, the sanctions imposed
here are civil. They are intended to coerce CMP and
Daleiden to abide by the Preliminary Injunction on a
going forward basis and remove any incentive for
further violations, and they will compensate NAF for
the costs and expenses it has reasonably incurred in
responding to the disclosures made in violation of the
Preliminary Injunction.9
DISCUSSION
I.

Failure to Controvert or Offer Any Evidence

NAF presented clear and convincing direct and
circumstantial evidence showing that CMP and
9 Defendants’ and respondents’ cases that apply criminal contempt
standards to proceedings involving “complex” injunctions are
inapposite. See, e.g., Int’l Union, United Mine Workers of Am. v.
Bagwell, 512 U.S. 821, 837 (1994) (distinguishing the injunction
at issue from “a complex, complex injunction” where court
“effectively policed petitioners’ compliance with an entire code
of conduct”); U.S. Equal Employment Opportunity Comm’n v.
Univ. of Louisiana at Monroe, No. CV 05-1158, 2016 WL 917331, at
*3 (W.D. La. Mar. 8, 2016 (court addressed “complex factual
interpretations of the Decree”). This Court’s injunction is in no
way “akin to ‘an entire code of conduct that the court itself had
imposed.’” N.Y. State Nat. Org. for Women v. Terry, 41 F.3d 794,
797 (2d Cir. 1994) (quoting Bagwell, 512 U.S. at 837).

App.41a
Daleiden violated the PI by uploading and disclosing
PI materials to CMP’s YouTube channel. NAF presented additional clear and convincing evidence that
Cooley and Ferreira acting on behalf of Daleiden,
violated the PI by posting PI material on the SCA
Media Page, and including publicly accessible links
to PI materials hosted on CMP’s YouTube channel in
their court filings.
In response, CMP, Daleiden, Cooley, and Ferreira
offer no evidence. They dispute whether NAF met its
initial burden, but based on the evidence adduced in
the OSC proceedings and in the record of this case,
NAF has. The burden to prove that they did not violate
the PI then shifted to them. Fed. Trade Comm’n v.
Enforma Nat. Prod., Inc., 362 F.3d at 1211. Instead
of addressing my specific and narrow questions about
their respective roles in the creation, uploading, and
posting of the PI materials, each of them refused to
answer any of my questions, resting on their assertion
of the attorney-client privilege.
I explicitly stated in the July 10th Order Concerning OSC Hearing and at the start of the hearing
that the only potential form of contempt being considered was civil contempt. Criminal contempt was
not contemplated. Dkt. No. 468 at 1. In the context of
civil contempt, adverse inferences are appropriately
drawn in light of refusals to testify or rebut evidence,
even where the refusal is made on Fifth Amendment
grounds. See, e.g., Aradia Women’s Health Ctr. v.
Operation Rescue, 929 F.2d 530, 532 (9th Cir. 1991)
(adverse inferences permissible to draw from invocation
of Fifth Amendment privilege).
Moreover, the vast majority of questions I posed
did not call for disclosure of attorney-client privileged

App.42a
information or attorney work-product, such as when
someone learned about a certain action, who had access
to CMP’s YouTube channel, when the SCA Media Page
went live, or what steps they took to comply with my
May 25th Order. Nonetheless, Daleiden, Cooley, and
Ferreira each refused to answer any part of my questions based on the attorney-client privilege.10 Even if
there was a good-faith basis to assert the attorneyclient privilege to refuse to answer the questions (and
I do not find that there was), defendants and respondents could have chosen to make a limited waiver of
the privilege. They could have asked to give their
answers to me ex parte with an order limiting the
waiver to the questions posed for purposes of determining whether they should be held in civil contempt. They did not seek to do this either. Instead,
they chose to stonewall my effort to discover their
version of the truth.
NAF’s clear and convincing showing remains
unrebutted. Given that showing it is not necessary to
draw “adverse” inferences against defendants and
respondents. To be sure, the reasonable inferences
supported by NAF’s evidence only strengthen my
conclusions. As discussed below, the direct and
circumstantial evidence lead to the conclusion that
CMP, Daleiden, Cooley and Ferreira each knowingly
violated the PI.

10 As noted above, after the OSC re Contempt Hearing, Cooley
and Ferreira submitted declarations that, as confirmed by their
forensic expert, the PI materials had been taken down by 4:45
p.m. Dkt. Nos. 477, 478. Those declarations, however, do not
answer my questions concerning the steps Cooley and Ferreira
took in response to my May 25 Order.

App.43a
II.

Daleiden and CMP

NAF’s evidence shows that CMP produced the
“new” Preview video and asked supporters to share it
and get more information from CMP’s website.
According to NAF, the Preview video “has all the
hallmarks” of the prior videos that Daleiden admittedly
produced and took credit for on behalf of CMP, videos
whose release led to the filing of this action. It is
undisputed that the Preview video was uploaded to
CMP’s YouTube channel, as were the 14 videos containing excerpts of PI recordings labelled by each
Doe’s name as the “Accusers” playlist, as were the
337 videos (334 of which contained recordings covered
by the PI) under the “Defense Filing” playlist. It is
significant that both the Preview video and the Accusers
playlist videos were not just raw footage but were
edited and cut down from over 500 hours of recordings
from the NAF Annual Meetings. The Accusers playlist
is comprised of excerpts of recordings showing and
identifying the Does in the Criminal Complaint. The
Preview video shows seven of those Does and contains
other excerpts of PI recordings; excerpts I viewed and
addressed in the Preliminary Injunction Order that
were characterized by NAF as misleadingly edited and
taken out of context and characterized by defendants
as showing criminal acts or extreme callousness by
NAF members. The conclusion I draw from the direct
and circumstantial evidence, from Daleiden’s admitted
role with CMP, and from his failure to rebut NAF’s
allegations, is that Daleiden was the one who created
the Preview video and Accusers playlist, uploaded
them onto CMP’s YouTube channel, and forwarded
those links to his criminal counsel for their use on his
behalf.

App.44a
Daleiden’s civil case defense counsel has described
Daleiden as being the person with intimate knowledge
of the 500 hours of recordings. That characterization
was made in support of defendants’ objection to NAF’s
prior request for me to order Daleiden and his civil
counsel to relinquish control over the PI materials.
According to civil defense counsel at that time, counsel
needed Daleiden to retain control over the recordings
so that he could parse through the materials to help
them defend this case.
All of the relevant videos—both edited/excerpted
and the raw footage—were uploaded to CMP’s YouTube
channel.11 At the time of the materials were uploaded
to CMP’s YouTube channel between May 3, 2017 and
May 24, 2017, Daleiden had possession of the PI
materials. There is no evidence, except for the limited
production of just over 20 video excerpts provided by
the DAG to SCA on May 16, 2017, that the SCA
attorneys had access to those materials prior to May
24, 2017, much less the intimate knowledge of where
in the over 500 hours of recordings excerpts showing
the Does could be found. Similarly, there is no evidence
that the 337 videos comprising the Defense Filings
playlist (including 144 hours of raw footage from the
NAF Annual Meetings) was in the criminal defense

11 Daleiden has declared under penalty of perjury that he is the
founder and “Director” of CMP. See Dkt. Nos. 268-2 ¶ 2.
Daleiden’s counsel has also sought relief on the theory that
CMP is not a separate entity from Daleiden, in other words that
Daleiden and CMP are one and the same. See, e.g., Dkt. No. 103
at 1-3; Dkt. No. 118 at 1-3.

App.45a
counsel’s possession before they were uploaded to
CMP’s YouTube channel.12
Daleiden and CMP admit the “inescapable inference” from the facts is:
that someone with access to CMP’s YouTube
channel posted enjoined videos to a private—
i.e., accessible by direct link only—playlist
on YouTube and then provided that link to
Daleiden’s criminal counsel with the
apparent expectation that the videos would
be used as evidence in Daleiden’s criminal
case. Plaintiffs have provided no evidence
suggesting that Daleiden or CMP had any
expectation that the videos would be used in
any other way than that single one.
Daleiden/CMP OSC Resp. [Dkt. No. 433-2] at 12
(emphasis added). According to Daleiden and CMP,
criminal defense counsel played no role in the creation
or uploading of the videos and recordings to CMP’s
YouTube channel.13 In light of Daleiden and CMP’s
deafening silence as to their role, there is clear and

12 In their brief, Cooley and Ferreira assert that at the time
Presiding Judge Jackson ordered the DAG to make all seized
evidence available to SCA for purposes of privilege review,
“Defense counsel already possessed the videos for purposes of
investigating the case against Mr. Daleiden.” SCA OSC Resp. at
3. There is, however, no declaration or other evidence supporting
that assertion.
13 CMP and Daleiden also admit they knew SCA planned to
“use,” and therefore disclose and publish, the videos.

App.46a
convincing evidence sufficient to hold them in contempt.14
In addition to their self-created “no evidence”
argument, Daleiden and CMP raise a number of other
arguments that they cannot or should not be held in
civil contempt. First, they argue that there is
insufficient evidence that the disclosures of the PI
materials caused NAF harm resulting from Daleiden’s
and CMP’s alleged role in the disclosures because of
the alleged lack of evidence of any harm flowing from
the Demurrer and RJN link to the Defense Filing
playlist. Dalieden/CMP Resp. OSC at 6-7. Defendants
are wrong. See Foran Decl. ¶ 31 (noting efforts NAF
and its counsel took to take down all 150 hours of
materials from all three YouTube links uploaded to
Google by one particular user).15
Second, Daleiden and CMP argue that they bear
no responsibility for the ultimate disclosures on
SCA’s Media Page. As an initial matter, this argument
14 There is some additional evidence that CMP likely acting
through Daleiden directly disclosed the Preview video, separate
and apart from SCA’s disclosure. For example, the 12:01 am
EST May 25, 2017 publication of the Preview video on the National
Review’s website, where the National Review attributed the
shocking new video to CMP. There is no mention of SCA in
connection with the Preview video. Foran Decl., Ex. J; Foran
Second Supp. Decl., Ex. B.
15 Defendants argue that if there was a violation of the PI, NAF
can only be compensated for harms flowing from the first disclosure,
i.e., defense counsel’s choice to make public the Defense Filing
link in the Demurrer and RJN, and that subsequent or cumulative
disclosures cannot have separately harmed NAF. Defendants’
OSC Resp. at 6-7. That argument, if accepted, would give contemnors a free pass to continue their contempt and provide no
disincentive to continued or future violation of court orders.

App.47a
wholly ignores that the first “disclosure” (if not publication) was the uploading of PI materials to YouTube
during the May 2017 time period. The PI prevented
CMP and Daleiden from “publishing or otherwise disclosing to any third-party” any of the materials
covered by the PI. Dkt. No. 354 at 42. Daleiden and
CMP do not defend why the uploading of materials to
a server operated and controlled by a third-party is
not a disclosure to a third-party. Even if the links
were “unlisted” and “private” so that they could not
be seen (yet) by members of the public, those videos
were still disclosed to a third-party, namely YouTube
and its employees. The whole purpose of YouTube is to
facilitate video-sharing. Marking a video as “private”
does not mean it cannot be shared, but only that it
will not be searchable or viewable absent having
received a link to it. See, e.g., Viacom Int’l Inc. v.
Youtube Inc., 253 F.R.D. 256, 264 (S.D.N.Y. 2008)
(discussing YouTube.com’s default public setting and
how videos marked as “private” are nonetheless
sharable). The only reasonable conclusion to draw from
uploading materials to YouTube is that they were
uploaded for the purpose of facilitating the publishing
and distribution of those videos, which is what in fact
occurred.16

16 At oral argument, counsel for Daleiden and CMP posited that
the videos could have been uploaded to YouTube for the limited
purpose of “sharing” them with criminal defense counsel, an
action that in their view would not have violated the PI. That
potential explanation is not supported by a declaration or by
any reasonable inference from the evidence that is in the record.
Neither the attorney-client privilege nor work product doctrine
would have been necessary to shield such an explanation.

App.48a
Beyond this unaddressed point, Cooley and Ferreira admit that they posted the PI materials and links
to CMP’s YouTube playlists on their client’s behalf.
SCA OSC Resp. at 13. While Daleiden attempts to
walk away from the conduct of his criminal defense
attorneys, he cannot. As the Supreme Court has explained, “[p]etitioner voluntarily chose this attorney
as his representative in the action, and he cannot now
avoid the consequences of the acts or omissions of
this freely selected agent. Any other notion would be
wholly inconsistent with our system of representative
litigation, in which each party is deemed bound by
the acts of his lawyer-agent and is considered to have
‘notice of all facts, notice of which can be charged
upon the attorney.’” Link v. Wabash R. Co., 370 U.S.
626, 633-34 (1962). Had Daleiden come forward with
sworn testimony that he did not know, intend, or
approve his attorneys to publicly disclose these materials, additional analysis might be required.17 But
given Daleiden’s silence, no additional analysis is
required.18
17 Daleiden’s own conduct with uploading the materials to
CMP’s YouTube channel would still be at issue. This is not “a
situation where the lawyer alone commits misconduct and the
court visits the lawyer’s sins on the innocent client when awarding
sanctions.” Douglas R. Richmond, Sanctioning Clients for Lawyers’
Misconduct-Problems of Agency and Equity, 2012 Mich. St. L.
Rev. 835, 837 (2012).
18 During oral argument, defendants’ counsel also relied on Lal
v. California, 610 F.3d 518 (9th Cir. 2010), to argue that Daleiden
and CMP should not be held liable for SCA’s “gross negligence”
if I determine that Cooley and Ferreira violated the PI. As
discussed, I find Daleiden and CMP in contempt for their own
conduct, separate and apart from the conduct of Cooley and
Ferreira. In addition, Lal is inapposite. It addresses whether

App.49a
Daleiden attempts to escape liability for anything
SCA did with the YouTube links because he acted in
good faith and believed that this Court’s PI could not
possibly prohibit the use of the videos in his criminal
proceeding. CMP/Daleiden Resp. OSC at 6-7. As an
initial matter, generalized “good faith” isn’t a defense
to civil contempt based on violation of a court order,
absent a showing that the court’s order was ambiguous
or vague. See Inst. of Cetacean Research v. Sea Shepherd Conservation Soc’y, 774 F.3d 935, 953 (9th Cir.
2014). There is no argument that the short, simple
commands of the Preliminary Injunction are vague or
ambiguous. Even if Daleiden may have held a genuine
a belief that the PI did not reach use of the videos in
support of his criminal defense (and there is no evidence
what Daleiden’s alleged good faith belief was because
Daleiden refused to answer any questions at the OSC
re Contempt Hearing and failed to provide a declaration
to support the existence of his supposed good faith
belief), that does not provide him cover. Id. at 943
(rejecting “Defendants’ self-serving interpretation of
their obligations under our injunction” as an unwarranted invitation to “experimentation with disobedience”).
Moreover, as will be described in more detail
below, the vast majority of the videos uploaded to
YouTube and published on websites, Twitter, and
eventually on the SCA Media Page had little or nothing
to do with the criminal court filings and arguments
made in Superior Court. The Criminal Complaint is
limited to recordings made in California, but many
hours of recordings disclosed by Daleiden, CMP,
attorney gross negligence constitutes an “extraordinary circumstance” for relief under Fed. R. Civ. Proc. 60(b). Id. at 524-527.

App.50a
Cooley and Ferreira were taken at NAF’s Baltimore
meeting and are irrelevant to the criminal proceedings.
Moreover, while the Defense Filing list was submitted
to the Superior Court in support of the Demurrer,19
the Preview video and the Accusers playlist were not.
Finally, Daleiden and CMP argue that NAF has
not established its entitlement to damages for the
contempt. I disagree. The declarations of Fowler and
Gannon from NAF and the Foran Declarations show
exactly how NAF was damaged; by having to expend
money, staff time, and attorney time (a) to identify
and get websites to take down the PI materials, (b) to
address their members’ security needs caused by the
identification of those members in the disclosed PI
materials and the threats those members received
following the May 25 disclosures, (c) to monitor websites
for PI materials and threats against the members
identified in the disclosed PI materials, and (d) by
their attorneys’ legal efforts to secure take downs
and sanctions. The harms have been identified and
sufficiently established. The reasonable amount of
monetary sanctions necessary to compensate NAF for
those harms will be “proved up” as described below.
III. Cooley and Ferreira
The facts showing express and repeated violations
of the PI are even stronger with respect to Cooley and
Ferreira. The SCA Media Page expressly acknowledged
the existence of the PI and that the PI prevented
19 The Defense Filing list should have been filed under seal, absent
an order of the Superior Court. As noted above, the Superior
Court denied Daleiden’s request that it take judicial notice of
the videos and removed them from the docket. See supra.

App.51a
Daleiden from “publishing or otherwise disclosing to
any third-party” any recordings covered by the PI.20
Cooley and Ferreira argue, instead, that they
reasonably believed the PI did not bind them, even
though they admit that at all times they were acting
on their client’s behalf. SCA OSC Resp. at 4. Cooley
and Ferreira admit that all of their acts were in
furtherance of representing their client. But if Daleiden
could not violate the PI, they could not do so on his
behalf. Rule 65(d) specifically binds a party’s “officers,
agents, servants, employees, and attorneys” to an
injunction binding the party. Fed. R. Civ. Proc. 65(d)
(2(B).
Cooley and Ferreira’s arguments that they had a
good faith belief the injunction did not cover them
fails for the same reasons that argument fails for
Daleiden.21 There is nothing ambiguous about the scope
of or language in the PI. That the PI does not “enjoin
in the future criminal defense counsel” from using
the PI materials “should criminal charges be brought
20 As noted above, Cooley and Ferreira provide no evidence
explaining how they received the information at issue—the
Preview video link to embed on their site, the YouTube link to
the Accuser playlist containing excerpts from PI recordings
showing the Does named in the Criminal Complaint, or the
YouTube Defense Filings playlist linking to the 144 hours of
raw footage. As discussed above and arguably admitted by CMP
and Daleiden, the only reasonable conclusion is that all of the
YouTube materials were edited, uploaded to YouTube, and
delivered via link to Cooley and Ferreira by Daleiden.
21 As with Daleiden, neither Cooley nor Ferreira submit a
declaration attesting under penalty of perjury as to what their
belief actually was with respect to the PI. There is simply no
evidence at all on this topic.

App.52a
in a separate sovereign” is irrelevant. SCA OSC
Resp. at 10. The PI expressly covered Daleiden, and
Cooley and Ferreira were at all times working as his
agents. If there was any doubt, prudent counsel could
have sought guidance from me or from the Superior
Court. Cooley and Ferreira did not.22 They decided to
publicly disclose the materials with full knowledge of
the existence of the PI binding their client and them.
Cooley and Ferreira also argue that the PI could
not prevent them from publicly disclosing the PI
materials because they did so in order to mount a full
and vigorous criminal defense for Daleiden. In their
OSC Response, Cooley and Ferreira do not even attempt
to show how the embedding of the Preview video on
their website and providing the link to the Accusers
YouTube playlist was done in connection with contemplated or actual legal proceedings in Superior
Court. Instead, they focus on their use of the Defense
Filing YouTube playlist in their Demurer and RJN,
arguing that it was important to submit that to the
Superior Court to “defend their client’s right to due
process as well as demonstrate to the superior court
their position that the videos themselves disproved
there was a violation of any alleged victim’s right to
privacy.” SCA OSC Resp. at 4. They fail to acknowledge
that submission of the Defense Filing YouTube link
22 In contrast, the civil case defense counsel notified me that a
defendant received a grand jury subpoena from a local law
enforcement agency and that they expected the testimony and
responses called for might touch upon or disclose PI information. Dkt. No. 323-3. Counsel notified me in advance of the
appearance and sought guidance to the extent I had concerns
about that intended testimony. No response from me was
necessary, but the civil case defense counsel adopted the
appropriate approach, seeking guidance in advance.

App.53a
was unnecessary when they also filed a thumb drive
containing the same videos. Nor do they address why,
if using the link in the Demurrer itself and the RJN
was necessary, they did not file those portions of the
documents under seal. They fail to address that if
their purpose was to defend their client’s right to due
process—presumably access to the Does’ names and
specific identification of the recordings charged by the
AG (the arguments that were made in the Demurrer)—
and to show that there was no privacy violation, why
did they include in that link recordings made at
NAF’s Baltimore conference (which were not charged
in the Criminal Complaint)? Why did they include all
144 hours when the vast majority of those hours
were irrelevant to the issues raised?
Absent explanation from Cooley and Ferreira, the
only conclusion I can draw from the uncontroverted
facts is that Cooley and Ferreira’s use of the Defense
Filing link was a wholly gratuitous effort to give
Cooley and Ferreira a fig leaf to cover their plan to
violate the PI by making the raw footage and the other
videos available to the public. Despite the lip service
argument that disclosure of the raw footage was
necessary to show the Court and the public why the
Demurrer should be granted, Cooley and Ferreira admit
that their real goal was to score a win in the court of
public opinion by releasing the PI materials. They
admit that the decision to post the videos on their
website “was in the first instance a way criminal
defense counsel through which they could get their
side of the story out.” SCA OSC Resp. at 5. Relying
on the fact that they had first failed to file under seal
the YouTube link in the Demurrer and RJN, and that
the AG had not objected to the YouTube link in the

App.54a
Demurrer and RJN, Cooley and Ferreira argue that
they believed they were then free to include that link
on their website as well as the edited and excerpted
Preview video and Accuser playlist “in response to
the Attorney General’s press release” on the criminal
case. Id. There is no rational or legal basis for such a
belief.
Cooley and Ferreira also complain of a double
standard, arguing that because the California Attorney
General is not bound by the Preliminary Injunction
and is free to use the PI materials, they should be
free to do so as well. SCA OSC Resp. at 11. However,
what law enforcement agencies do with evidence
secured through legally obtained search warrants or
pursuant to criminal subpoenas is not something I
have interfered with or intend to interfere with. See
Dkt. No. 323-3.23 Cooley and Ferreira are not on equal
footing with state or local law enforcement agencies.
I also reject Cooley and Ferreira’s argument that
complying with the Preliminary Injunction would
hamper their ability to defend Daleiden. They have
already made a successful (in part) Demurrer. Foran
Reply Decl., Ex. C (Transcript of Superior Court
proceedings).24 As the criminal case progresses, I will
not interfere with Judge Hite’s determinations con23 Relatedly, a number of subpoenas were issued by state attorneys
generals for the PI materials. NAF and defendants negotiated
agreements to defer responses or legal challenges to those
subpoenas pending the appeal of the Preliminary Injunction
Order. I have taken steps to ensure that those attorney generals
supported those deferments. See Dkt. Nos. 379, 380.
24 In so ruling, Judge Hite declined to take judicial notice of the
videos and ordered the flash drive removed from the court’s
docket. Id. at 5:27-6:5.

App.55a
cerning what information about the Does or what
portion of the relevant recordings should become
publicly accessible or disclosed in connection with the
criminal pre-trial and trial proceedings. Those determinations are Judge Hite’s, not Cooley’s, Ferreira’s or
Daleiden’s.25
Defendants and respondents’ apparent request for
Younger abstention with respect to the PI has no merit.
In Younger v. Harris, 401 U.S. 37 (1971), the Supreme
Court explained how “interests of comity and federalism
counsel federal courts to abstain from jurisdiction
whenever federal claims have been or could be presented in ongoing state judicial proceedings that concern important state interests.” Hawaii Hous. Auth. v.
Midkiff, 467 U.S. 229, 237-38 (1984). Abstention is
not warranted here because significant federal proceedings have already occurred, and they occurred well
before the state court action was initiated. Id.26
Instead, because “federal courts must normally fulfill
their duty to adjudicate federal questions properly
brought before them,” this case will proceed (pending
25 There is no support for defendants’ or respondents’ assumption
that, given Daleiden’s public trial rights under the Sixth
Amendment, all of the PI materials they disclosed in contravention
of the PI would become public through the trial. For example,
they ignore that a substantial amount of the disclosed PI materials
were from the Baltimore NAF meeting and there are no criminal
charges related to those recordings. Judge Hite will determine
what is relevant, admissible, and accessible to the public in the
criminal proceedings.
26 The posture of this case is the opposite of the posture in Pennzoil
Co. v. Texaco, Inc., 481 U.S. 1 (1987), relied on by respondents.
In that case, Texaco filed a federal action after a state court jury
verdict, to prevent that verdict from becoming an enforceable
judgment. Id. at 5-6.

App.56a
exhaustion of the Supreme Court certiorari process
by defendants if they choose to seek it) and the PI
remains in place and in effect. Id. Finally, even if
Younger abstention was theoretically feasible, it is
not necessary given the lack of any true conflict
between NAF’s interests in this case and Daleiden’s
ability defend himself in state court.
CONCLUSION AND REMEDIES
Based on the foregoing, defendants Center for
Medical Progress and David Daleiden, and Daleiden’s
criminal defense attorneys Steve Cooley and Brantford
J. Ferreira, as the agents of Daleiden, ARE FOUND
IN CIVIL CONTEMPT for violating the clear mandate
of the Preliminary Injunction Order, due to the
following conduct each of them facilitated, conducted,
or directed:
(i)

the uploading and hosting of the Preview
video containing recordings covered by the
PI Order on CMP’s YouTube channel; the
posting of CMP’s Preview video on the SCA
website; and the posting/sharing of CMP’s
Preview video through links to its location
on CMP’s YouTube channel;

(ii) the uploading and hosting excerpts of video
materials covered by the PI Order on CMP’s
YouTube channel, subsequently collected as
the “Superior Court Defense Filing-Accusers”
playlist; posting on SCA’s website the link
to the Accusers playlist hosted on CMP’s
YouTube channel; and
(iii) the uploading and hosting of the over 144
hours of PI Materials to CMP’s YouTube

App.57a
channel collected as the Defense Filing playlist; the posting on SCA’s website of the
Demurrer and related Request for Judicial
Notice, making the link to the Defense Filing
playlist hosted on CMP’s YouTube channel
accessible to the public; and the failure to
file Footnote 1 and Ex. 1 to RJN under seal
in the first instance.
In order to secure these parties’ and respondents’
current and future compliance with the Preliminary
Injunction Order and to compensate NAF for expenses
it has incurred that are directly the result of the
violation of the Court’s Preliminary Injunction Order,
CMP, Daleiden, Cooley, and Ferreira are held jointly
and severally liable for:
(i)

NAF’s security costs, incurred from May 25,
2017 as a result of the violations of the
Preliminary Injunction Order. NAF’s Security
Costs are calculated, based on the Fowler
declarations as:
(a) $1,568.26, for the security assessment
of the home and office of one of the
individuals named and featured in the
Preview video. Fowler Decl. ¶3.
(b) $11,411.92, for security costs incurred
by a NAF-member facility to protect a
physician identified in the Preview
video. Fowler Supp. Decl. ¶ 5 & Ex. C.

(ii) NAF’s personnel time, incurred as a result
of the violations of the Preliminary Injunction Order, because NAF was required to
divert in-house staff from other work and
provide additional assignments to outside

App.58a
consultants. NAF’s personnel costs are calculated, based on the Fowler Declarations, as:
(a) $26,000 for in-house staff time through
June 30, 2017. Fowler Supp. Decl. ¶ 4.
(b) $1,282.50 for outside consultant time.
Id.
(iii) NAF’s attorneys’ fees incurred as a result of
the violations of the Preliminary Injunction,
including counsel’s efforts to get websites to
“take down” the PI materials and the time
reasonably incurred in communicating with
civil and criminal defense counsel and
moving for contempt sanctions. The amount
of attorneys’ fees incurred by NAF’s counsel,
as of June 1, 2017, is $96,610.50. Foran
Decl. [Dkt. No. 462-5] ¶ 37.
By July 28, 2017, NAF’s counsel shall lodge in
camera with chambers their detailed and contemporaneous billing records substantiating their attorneys’
fees request. At the same time, NAF shall e-file a
redacted copy of the same, redacting only information protected by the attorney-client or attorney work
product doctrines. By August 4, 2017, if they wish,
counsel for CMP, Daleiden, Cooley, and Ferreira may
file a joint objection, not exceeding 10 pages, challenging specific entries or the reasonableness of the
time spent by NAF’s counsel.
Similarly, by July 28, 2017, NAF shall lodge in
camera with chambers a detailed breakdown of the
$26,000 in time NAF has incurred by diverting inhouse staff to respond to the disclosures. That
breakdown shall list the title of each staff member
whose time is sought, the hourly rate sought for staff

App.59a
member’s time, the hours spent by each staff member, and a general description of the tasks completed
by each staff member. At the same time, NAF shall
e-file a redacted version (if redaction is necessary) of
the same. By August 4, 2017, if they wish, counsel for
CMP, Daleiden, Cooley, and Ferreira may file a joint
objection, not exceeding 10 pages, challenging specific
entries or the reasonableness of the time spent by
NAF’s in-house staff.
I will take the billing records and any objections
under submission, and issue a final order quantifying
the total amount of sanctions imposed for the civil
contempt.
In addition to these monetary sanctions, as
announced at the hearing on July 11, 2017, I ORDER
the following:
(i)

On or before Friday July 14, 2017, CMP,
Daleiden, Cooley, and Ferreira must confirm
under oath that they have “taken down” or
otherwise removed any materials covered by
the PI Order from any third-party hosting
service (e.g., YouTube) and removed any
materials covered by the PI Order from
websites under their control27; and

(ii) On or before Friday July 14, 2017, CMP and
Daleiden must turn over to counsel all
materials covered by the PI Order and must
not retain control over any of that material,
27 Pursuant to the Minute Order following the July 11, 2017
hearing, on July 13, 2017 and on July 14, 2017, Daleiden, Cooley
and Ferreira filed these confirmations under oath. Dkt. Nos.
476, 477, 478.

App.60a
absent further Order of this Court or the
Superior Court handling the criminal matter.
Absent an order from this Court or the
Superior Court providing Daleiden with
greater access to that material, Daleiden
may only access the PI material onsite at the
offices of SCA or his civil defense counsel.
In imposing these sanctions for civil contempt, I
have considered the character and magnitude of “the
harm threatened by continued contumacy, and the
probable effectiveness of any suggested sanction in
bringing about the result desired.” United States v.
United Mine Workers of Am., 330 U.S. 258, 304
(1947). If there are any further violations of the PI, I
will move swiftly to ensure compliance with the PI. If
that occurs, I will consider further and more significant
civil sanctions, as well as criminal contempt sanctions.
IT IS SO ORDERED.
/s/ William H. Orrick
United States District Judge
Dated: July 17, 2017

App.61a
ORDER GRANTING
MOTION FOR PRELIMINARY INJUNCTION
(FEBRUARY 5, 2016)
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
________________________
NATIONAL ABORTION FEDERATION, ET AL.,

Plaintiffs,
v.
CENTER FOR MEDICAL PROGRESS, ET AL.,

Defendants.

________________________

Case No. 15-cv-03522-WHO
Re: Dkt. Nos. 3, 109, 222, 225, 287,
298, 310, 320, 322, 346, 352
Before: William H. ORRICK,
United States District Judge
On July 31, 2015, plaintiff National Abortion
Federation (NAF) filed this lawsuit and sought a
Temporary Restraining Order to prohibit defendants
David Daleiden, Troy Newman, and the Center for
Medical Progress from publishing recordings taken
at NAF Annual Meetings. NAF alleged, and it has
turned out to be true, that defendants secured false
identification and set up a phony corporation to obtain
surreptitious recordings in violation of agreements
they had signed that acknowledge that the NAF infor-

App.62a
mation is confidential and agreed that they could be
enjoined in the event of a breach. In light of those
facts, because the subjects of videos that defendants
had released in the previous two weeks had become
victims of death threats and severe harassment, and
in light of the well-documented history of violence
against abortion providers, I issued the TRO.
The defendants’ principal arguments against
injunctive relief rest on their rights under the First
Amendment, a keystone of our Constitution and our
democracy. It ensures that the government may not—
without compelling reasons in rare circumstances—
restrict the free flow of information to the public. It
provides that “debate on public issues should be
uninhibited, robust, and wide-open.” New York Times
Co. v. Sullivan, 376 U.S. 254, 270 (1964). But Constitutional rights are not absolute. In rare circumstances, freedom of speech must be balanced against
and give way to the protection of other compelling
Constitutional rights, such as the First Amendment’s
right to freedom of association, the Fifth and Fourteenth Amendments’ protection of liberty interests,
and the right to privacy. After fully considering the
record before me, I conclude that NAF has made such
a showing here.
Discovery has proven that defendants and their
agents created a fake company and lied to gain access
to NAF’s Annual Meetings in order to secretly record
NAF members for their Human Capital Project. In
furtherance of that Project, defendants released confidential information gathered at NAF’s meetings
and intend to release more in contravention of the
confidentiality agreements required by NAF. Critical
to my decision are that the defendants agreed to

App.63a
injunctive relief if they breached the agreements and
that, after the release of defendants’ first set of
Human Capital Project videos and related information
in July 2015, there has been a documented, dramatic
increase in the volume and extent of threats to and
harassment of NAF and its members.
Balanced against these facts are defendants’ allegations that their video and audio recordings show
criminal activity by NAF members in profiteering from
the sale of fetal tissue. I have reviewed the recordings
relied on by defendants and find no evidence of criminal activity. And I am skeptical that exposing criminal
activity was really defendants’ purpose, since they did
not provide recordings to law enforcement following the
NAF 2014 Annual Meeting and only provided a bit of
information to law enforcement beginning in May,
2015. But I have not interfered with the Congressional committee’s subpoena to obtain the recordings
to make its own evaluation, nor with the subpoenas
from the states of Arizona and Louisiana (although I
have approved a process to insure that only subpoenaed material is turned over).
Defendants also claim that the injunction is an
unconstitutional prior restraint. They ignore that
they agreed to keep the information secret and agreed
to the remedy of an injunction if they breached the
agreement. Confidentiality agreements are common to
protect trade secrets and other sensitive information,
and individuals who sign such agreements are not free
to ignore them because they think the public would
be interested in the protected information.
There is no doubt that members of the public have
a serious and passionate interest in the debate over
abortion rights and the right to life, and thus in the

App.64a
contents of defendants’ recordings. It should be said
that the majority of the recordings lack much public
interest, and despite the misleading contentions of
defendants, there is little that is new in the remainder
of the recordings. Weighed against that public interest
are NAF’s and its members’ legitimate interests in
their rights to privacy, security, and association by
maintaining the confidentiality of their presentations
and conversations at NAF Annual Meetings. The
balance is strongly in NAF’s favor.
Having fully reviewed the record before me, I
GRANT NAF’s motion for a preliminary injunction to
protect the confidentiality of the information at issue
pending a final judgment in this case.
Background
I.

The Center for Medical Progress and the Human
Capital Project

In 2013, defendant David Daleiden founded the
Center for Medical Progress (“CMP”) for the purpose
of monitoring and reporting on medical ethics, with a
focus on bioethical issues related to induced abortions
and fetal tissue harvesting. Declaration of David
Daleiden (Dkt. No. 265-3, “Daleiden PI Decl.”) ¶ 2.
CMP is incorporated in California as a nonprofit public
benefit corporation, with a stated purpose “to monitor
and report on medical ethics and advances.” NAF
Appendix of Exhibits in Support of Motion for Preliminary Injunction (“Pl. Ex.”) 9 (at NAF0000533).1 In
1 Defendants raise a number of objections to NAF’s evidence.
See Dkt. No. 265-7. These evidentiary objections were submitted as
a separate document in violation of this Court’s Local Rules.
Civ. L. R. 7-3(a). Recognizing that error, defendants filed a motion

App.65a
order to obtain CMP’s tax-exempt status, in its registration with the California Attorney General and in its
application with the Internal Revenue Service Daleiden
certified, among other things, that “[n]o substantial
part of the activities of this corporation shall consist
of carrying on propaganda, or otherwise attempting to
influence legislation, and this corporation shall not
participate or intervene in any political campaign.”
Pl. Ex. 9 (at NAF0000535); Pl. Ex. 10 (at NAF0001789).
As part of CMP’s work, Daleiden created the
“Human Capital Project” (“Project”) to “investigate,
document, and report on the procurement, transfer,
and sale of fetal tissue.” Daleiden PI Decl. ¶ 3. The
Project’s goal is to uncover evidence regarding violations
of state and/or federal law due to the sale of fetal
tissue, the alteration of abortion procedures to obtain
fetal tissue for research, and the commission of partial
birth abortions. Id. Putting the Project into action,
Daleiden created a fake front company that purportedly
supplies researchers with human biological specimens
and specifically secured funding from supporters in
order to infiltrate NAF’s 2014 Annual Meeting. Pl.
asking for leave to file an amended Opposition or for relief
therefrom. Dkt. No. 298. That motion is GRANTED and I will
consider defendants’ evidentiary objections. See also Dkt. No.
301. To the extent I rely on evidence to which defendants object,
I will address the specific objection, bearing in mind that on a
motion for preliminary injunction evidence is not subject to the
same formal procedures as on a motion for summary judgment or
at trial and that a court may consider hearsay evidence. See, e.g.,
Flynt Distrib. Co. v. Harvey, 734 F.2d 1389, 1394 (9th Cir. 1984).
To the extent I do not rely on specific pieces of evidence, defendants’ objections to that evidence are overruled as moot. These
evidentiary rulings apply only to the admissibility of evidence for
purposes of determining the motion for a preliminary injunction.

App.66a
Ex. 26. The express aim of that infiltration was to:
“1) network with the upper echelons of the abortion
industry to identify the best targets for further
investigation and ultimate prosecution, and 2) gather
video and documentary evidence of the fetal body
parts trade and other shocking activities in the abortion
industry.” Id.
Defendant Troy Newman was, until January 2016,
a board member and the secretary of CMP. He counseled Daleiden on the efforts to set up the fake company,
to infiltrate meetings, and to secure recordings in
support of the Project. Pl. Ex. 14 (at NAF0004475-76);
Pl. Ex. 16 (at NAF0004493-94); see also Dkt. No.
344.2 The result of the Project, Newman hoped, would
be prosecution of abortion providers, state and Congressional investigations, the defunding of Planned
Parenthood by the government, and the closure of
abortion clinics. Pl. Ex. 16 (at NAF0004494, 4496); Pl.
Ex. 136 at 16.3 Defendant Newman is President of
Operation Rescue, an anti-abortion group that posts
the names and work addresses of abortion providers
on its website and manages another website that lists
every abortion facility and all known abortion
providers. Pl. Exs. 18, 20, 21, 22.4
2 Defendants object to Exhibits 14 and 16 for lack of foundation
and authentication. Defendants do not contend these transcripts do
not accurately represent the contents of the recordings attached
as Exhibits 15 and 17. Defendants’ objections are overruled.
3 Defendants object to Exhibit 136 on the grounds of relevance,
lack of foundation, and lack of authentication. Defendants to not
contend the transcript does not accurately represent the contents
of the recording identified. Defendants’ objections are overruled.
4 After the public launch of the Project on July 15, 2015,
counsel for CMP and Daleiden, Life Legal Defense Foundation,

App.67a
II.

The Creation of BioMax and Infiltration of NAF’s
2014 and 2015 Annual Meetings

In September 2013, Daleiden directed “investigators” on the Project (known by the aliases Susan
Tennebaum and Brianna Allen) to attend a conference of the Association of Reproductive Health Professionals (ARHP) as a representative of a fake business, BioMax Procurement Services. That business did
not exist, other than to be a “front” for the Project.
Daleiden PI Decl. ¶ 8; Pl. Ex. 26. Daleiden’s associates spoke with representatives from NAF, and
BioMax was invited to apply to attend the NAF Annual
Meeting in San Francisco, California the following
April. Daleiden PI Decl. ¶ 10.
In February 2014, defendant CMP received a grant
to fund the “infiltration of the . . . NAF Annual Meeting.” Pl. Exs. 26, 36; Deposition Transcript of David
Daleiden (Dkt. No. 187-3) 213:14-214:6. To that end,
Daleiden followed up with the NAF representatives—
posing as Brianna Allen on behalf Tennenbaum and
BioMax—and received a copy of the 2014 NAF Annual
Meeting Exhibitor Prospectus and Exhibitor Application for the upcoming meeting. Daleiden PI Decl.
¶ 11; Pl. Ex. 43. Daleiden filled out the Exhibitor
Application packet—comprised of the “Exhibit Rules
and Regulations” (“Exhibit Agreement” or “EA”), the
“Application and Agreement for Exhibit Space,” and
the “Annual Meeting Registration Form.” Daleiden
signed Susan Tennenbaum’s name to the EA, and
explained that it had also been involved in the Project as a legal
advisor “since its inception” and were committed to defunding
“contract killer” Planned Parenthood. Pl. Ex. 24. Defendants object
to Exhibits 18, 20, 21 and 22 as irrelevant and inadmissible
hearsay. Those objections are overruled.

App.68a
returned the Application packet. Daleiden PI Decl.
¶ 11; PL. Ex. 3; Daleiden Depo. at 160:8-18.
In February 2015, Daleiden contacted NAF seeking
information about BioMax exhibiting at NAF’s 2015
Annual Meeting in Baltimore, Maryland. Pl. Ex. 47.
Daleiden again filled out the “Application Agreement
for Exhibit Space,” “Exhibit Rules and Regulations,”
and “Registration Form,” signing Susan Tennenbaum’s
name to the EA. Pl. Exs. 4, 47; Daleiden Depo. at
287:5-22.5
Both the 2014 and 2015 EAs contain confidentiality clauses:
In connection with NAF’s Annual Meeting,
Exhibitor understands that any information
NAF may furnish is confidential and not
available to the public. Exhibitor agrees that
all written information provided by NAF, or
any information which is disclosed orally or
visually to Exhibitor, or any other exhibitor
or attendee, will be used solely in conjunction with Exhibitor’s business and will be
made available only to Exhibitor’s officers,
employees, and agents. Unless authorized in
writing by NAF, all information is confidential and should not be disclosed to any
other individual or third parties.

5 On the 2014 EA, Daleiden listed the “exhibitor representatives” as
Brianna Allen a Procurement Assistant, Susan Tennenbaum
the C.E.O., and Robert Sarkis a V.P. Operations. Pl. Ex. 3. On the
2015 EA, Daleiden listed the exhibitor representatives as Susan
Tennenbaum the C.E.O., Robert Sarkis the Procurement Manager,
and Adrian Lopez the Procurement Technician. Pl. Ex. 4.

App.69a
Pl. Exs. 3 & 4 at ¶ 17. Above the signature line, the
EAs provide: “I also agree to hold in trust and
confidence any confidential information received in
the course of exhibiting at the NAF Annual Meeting
and agree not to reproduce or disclose confidential
information without express permission from NAF.”
Pl. Exs. 3, 4 (emphasis in originals).
The EAs required Exhibitor representatives to
“be registered” for the NAF Annual Meeting and wear
badges in order to gain entry into exhibit halls and
meeting rooms. Id. ¶ 8. The EAs also provide that
“[p]hotography of exhibits by anyone other than NAF
or the assigned Exhibitor of the space being photographed is strictly prohibited.” Id. ¶ 13. The EAs
required an affirmation: “[b]y signing this Agreement,
the Exhibitor affirms that all information contained
herein, contained in any past and future correspondence
with either NAF and/or in any publication, advertisements, and/or exhibits displayed at, or in connection
with, NAF’s Annual Meeting, is truthful, accurate,
complete, and not misleading.” Id. ¶ 19. Finally, the
EAs provide that breach of the EA can be enforced by
“specific performance and injunctive relief” in addition
to all other remedies available at law or equity. Id. ¶ 18.
In order to gain access to the NAF Annual
Meetings, Exhibitor representatives also had to show
identification and sign a “Confidentiality Agreement”
(“CA”). Declaration of Mark Mellor (Dkt. No. 3-33)
¶ 11.6 For the 2014, Annual Meeting Daleiden (as
6 NAF has identified copies of two drivers licenses it claims were
used by Daleiden and Tennenbaum to access the NAF meetings.
Pl. Exs. 49-50. During his deposition, Daleiden asserted his Fifth
Amendment rights and refused to testify about the licenses.

App.70a
Sarkis) and the individuals pretending to be
Tennenbaum and Allen, each signed a CA. Pl. Exs. 5,
6; Daleiden PI Decl. ¶ 13. For the 2015 Annual Meeting,
the individual pretending to be Adrian Lopez, signed
the CA. Pl. Ex. 8.7 Daleiden (as Sarkis), Tennenbaum,
and Allen did not sign the 2015 CAs. When Daleiden,
Tennenbaum, and Allen were at the registration table,
they were met by a NAF representative. A NAF
representative asked Daleiden to confirm that the
sign-in staff had checked their identifications and
that they had signed the confidentiality forms. Daleiden
Foran PI Decl. ¶¶ 31-32. Defendants object to Exhibits 49 and
50 for lack of personal knowledge. Those objections are overruled.
Relatedly, NAF filed a motion to supplement the Preliminary
Injunction record, to include a press release from the Harris
County District Attorney’s office in Houston Texas. Dkt. No.
346. That motion is GRANTED. In the press release, the District
Attorney explained that a grand jury had cleared a local Planned
Parenthood affiliate of wrongdoing, but indicted Daleiden and
the person posing as Susan Tennenbaum for tampering with
governmental records, presumably related to their use of false
identification to gain access to meetings in Texas. Id.
In his deposition, Daleiden testified that he created false
business cards to use at the ARHP meeting and the NAF
Meetings for Susan Tennenbaum, Robert Daoud Sarkis, and
Brianna Allen. Pl. Ex. 51; Daleiden Depo. at 200:2–201:6 (business
cards used at the 2014 Meeting); see also Pl. Exs. 51, 52 &
Daleiden Depo. at 315:23–316:19 (business cards for Adrian Lopez
and Susan Wagner used at the 2015 Annual Meeting); Declaration
of Megan Barr (Dkt. No. 226-27) ¶¶ 4-5 (use of business card at
2015 Meeting).
7 Daleiden testified that all of the “investigators” involved in
the Project were CMP “contractors” acting under Daleiden’s specific
direction. Daleiden Depo. Trans. at 131:7-24, 135:21-136:11,
194:1, 194:10-195:6; see also Daleiden Supp. Resp. to NAF
Interrogatories (Dkt. No. 227-18) Nos. 2, 6.

App.71a
responded “Yeah yeah yeah. Excellent. Thank you so
much. . . . ” Declaration of Derek Foran in Support of
Preliminary Injunction (Dkt. No. 228-6) ¶ 79C8;
Daleiden Decl. ¶ 17; Daleiden Depo. 290:2-291:14.
Daleiden testified that it was his “preference” to
avoid signing the 2015 CA. Daleiden Depo. at 291:1525. The CAs provide:
It is NAF policy that all people attending its
conferences (Attendees) sign this confidentiality agreement. The terms of attendance are
as follows:
1.

Videotaping or Other Recording Prohibited:
Attendees are prohibited from making video,
audio, photographic, or other recordings of the
meetings or discussions at this conference.

2.

Use of NAF Conference Information: NAF
Conference Information includes all information distributed or otherwise made
available at this conference by NAF or any
conference participants through all written
materials, discussions, workshops, or other
means. . . .

3.

Disclosure of NAF Materials to Third Parties:
Attendees may not disclose any NAF Conference Information to third parties without
first obtaining NAF’s express written consent.
...

Pl. Exs. 5-8.
8 ¶ 79(C) refers to a specific excerpt of a recording taken by
Daleiden. Sub-Bates 15-062; Time stamp: 14:56:02-14:56:50.
The Court has reviewed all recording excerpts or transcripts of
recording excerpts cited in this Order.

App.72a
At the 2014 and 2015 Annual Meetings, Daleiden
and his associates wore and carried a variety of
recording devices that they did not disclose to NAF or
any of the meeting attendees. Daleiden Depo. at 118121; 255; 292-93. Daleiden and his associates did not
limit their recording to presentations or conversations
regarding fetal tissue, but instead turned on their
recording devices before entering the meetings each
day and only turned them off at the end of the day.
Daleiden Depo. at 121:24-122:22, 124:1-15. In the
end, they recorded approximately 257 hours and 49
minutes at NAF’s 2014 Annual Meeting and 246 hours
and 3 minutes at NAF’s 2015 Annual Meeting. They
recorded conversations with attendees at the BioMax
Exhibitor booths, the formal sessions at the Meetings,
and interactions with attendees during breaks. Foran
PI Decl. ¶ 2 & Pl. Ex. 19; Daleiden PI Decl. ¶ 18;
Daleiden Depo. at 122:18-123:25; 293:4-25. The interactions with individuals were recorded in exhibit
halls, hallways, and reception areas where Daleiden
contends hotel staff were “regularly” present. Daleiden
PI Decl. ¶ 18. Hotel staff were also present in the
rooms during presentations and talks, but hotel staff
did not sign confidentiality agreements. Id. ¶ 19;
Deposition of Vicki Saporta (Defendants’ Ex. 7) at
33:10-23. Broadly speaking, the majority of the
recordings lack any sort of public interest and consist
of communications that are tangential to the ones
discussed in this Order.

9 Plaintiff’s Exhibit 1 is a copy of the hard drive produced by
defendants containing the audio and video recordings made by
Daleiden and his associates at the 2014 and 2015 NAF Annual
Meetings.

App.73a
During the Annual Meetings, Daleiden and his
associates would meet to “discuss our . . . strategy
for . . . the project and for the meeting,” including
“specific strategies for specific individuals.” Daleiden
Depo. at 134:15-135:6. The associates were given a
“mark list” to identify their targets. Foran PI Decl.
¶ 79D (Sub-Bates: 15-145; Time stamp: 14:56:0214:56:50). The group also picked targets based on
circumstance: in one instance, Daleiden tells
“Tennenbaum” that it “would be really good to talk
tonight” with a particular doctor “now that she’s been
drinking.” Id. ¶ 79E (Sub-Bates: 15-225; Time stamp
15:33:00-15:34:00).
In approaching these individuals, the group used
“pitches” in their efforts to capture NAF members
agreeing to suggestions and proposals made by the
group about the “sale” of fetal tissue or other conduct
that might suggest a violation of state or federal law.
Daleiden told his associates that their “goal” was to
trap people into “saying something really like messed
up, like yeah, like, I’ll give them, like, live everything
for you. You know. If they say something like that it
would be cool.” Id. ¶ 79G (Sub-Bates: 15-021; Time
Stamp: 5:13-5:49). Daleiden also instructed his group
to attempt to get attendees to say the words “fully
intact baby” on tape. Id. ¶ 79H (Sub-Bates: 15-152;
Time Stamp: 16:06:50-16:07:00). As part of their efforts,
“Tennenbaum” would explain to providers that she “can
make [fetal tissue donation] extremely financially
profitable for you” and that BioMax has “money that
is available” and is “sitting on a goldmine” as long as
you’re “willing to be a little creative with [your] technique.” Foran PI Decl. ¶ 79J (Sub-bates: 15-152 Time
Stamp: 15:48:00-15:52:00). She asked NAF attendees:

App.74a
“what would make it profitable for you? Give me a
ballpark figure. . . . ” Id. Or “[i]f it was financially
very profitable for you to perhaps be a little creative
in your method, would you be open to” providing
patients with reimbursements for tissue donations.
Id. ¶ 79K (Sub-bates: 15-203; Time Stamp: 12:09:0012:10:21).
The parties dispute whether these goals were met
and if defendants’ traps worked.10 Defendants argue
that they captured NAF attendees agreeing to explore,
or at least expressing interest in exploring, being
compensated for the sale of fetal tissue at a profit,
which defendants contend is illegal under state and
federal laws. Defendants’ Opposition to Motion for
Preliminary Injunction (Dkt. No. 262-4) at 10-14.
However, they tend to misstate the conversations that
10 NAF argues that defendants cannot rely on any portion of
the recordings to oppose NAF’s motion for a preliminary
injunction. NAF Reply Br. at 29-30. NAF is correct that under
California and Maryland law, recordings taken in violation of
state laws prohibiting recordings of confidential communications
are not admissible in judicial proceedings, except as proof of an
act or violation of the state statutes. See Cal. Penal Code
§ 632(d); Feldman v. Allstate Ins. Co., 322 F.3d 660, 667 (9th
Cir. 2003) (concluding that § 632(d) is a substantive law,
applicable in federal court on state law claims); see also Md.
Code Ann., Cts. & Jud. Proc. § 10-405; Standiford v. Standiford,
89 Md. App. 326, 346 (1991). Because the accuracy of defendants’
allegations of criminal conduct are central to this decision,
however, I discuss the portions of the recordings relied upon by
plaintiff and defendants in some detail in this section. To place
this discussion under seal would undermine my responsibility
to the public as a court of public record to explain my decision.
Consistent with the TRO and the reasoning of this Order, in
describing the protected conversations I balance the interests of
the providers’ privacy, safety and association by omitting names,
places, and other identifying information.

App.75a
occurred or omit the context of those statements. For
example, defendants rely on a conversation with a
clinic owner where Daleiden suggests BioMax could
pay $60 per sample instead of $50 per sample. Defs.
Ex. 8. The clinic owner doesn’t respond to that suggestion, or give any indication about the actual costs to
the clinic of facilitating outside companies to come in
and collect fetal tissue. Id. Instead, the clinic owner
responds that providing tissue to outside companies
“is a nice way to get extra income in a very difficult
time, and you know patients like it.” Id.11 Defendants
point to another conversation where a provider asks
what the “reimbursement rate” is for the clinic, and
was told “it varies” by Tennenbaum. Defs. Ex. 9 (Dkt.
No. 266-4) at p. 18. Then, in response to Tennenbaum’s
suggestion about whether she’d “be open to maybe
being a little creative in the procedure,” the provider
responds that she was not sure and would have to discuss it and run it by the doctors. Defs. Ex. 9 (Dkt. No.
266-4) at p. 18. Tennenbaum explains that specimens
“go for” anywhere from “500 up to 2,000” and so “you
can see how profitable” it would be for clinics, to which
the provider says “Yeah, absolutely” and a different
provider says “that would be great” in response to
comments about having further discussions. Id. at p. 19.
Another provider responded to defendants’ suggestion of financial incentives by indicating that the
clinic would be “very happy about it,” but admitted
others would have to approve it and it wasn’t up to
her. Id., Dkt. No. 266-4 at p.8. Defendants point to a
11 Defendants do not suggest the “patients like it” is a suggestion
that patients are being paid for the fetal tissue. Instead, in the
context of that conversation, it refers to patients that like providing
fetal tissue for research purposes.

App.76a
conversation with a provider who discusses the “fine
line” between an illegal partial birth abortion and the
types of abortion that they perform, and the techniques
that they employ to ensure that they do not cross that
line. Defs. Ex. 10, Dkt. No. 266-5 at p. 4. That conversation, however, does not indicate that any illegal
activity was occurring. Similarly, defendants contend
that a provider stated that he ordinarily minimizes
dilation, since that is what is safest for the women,
but that if he had a reason to dilate more (such as
tissue procurement), he might perform abortions differently. Oppo. Br. at 11. But that is not what the
provider said. After acknowledging tissue donation
was not allowed in his state, he stated that “I could
mop up my technique if you wanted something more
intact. But right now my only concern is the safety of
the woman” and there was no reason to further dilate a
woman. Defs. Ex. 11, Dkt. No. 266-6 at p. 5.
Defendants rely on another conversation where
an abortion provider explains that how intact aborted
fetuses are depends on the procedure used and that
she does not ordinarily use digoxin to terminate the
fetus before performing 15-week abortions. Defs. Ex.
12, Dkt. No. 266-7, pgs. 1-8. She goes on to say that if
there was a possibility of donating the tissue to
research, women may choose that, and with the consent
of the woman she would be open to attempting to obtain
intact organs for procurement. Id. Again, this is not
evidence of any wrongdoing.
In another conversation, a provider states that
his/her clinic has postponed the stage at which digoxin
is used and that as a result they can secure more and
bigger organs for research so the tissue “does not go
to waste,” to which the vast majority of women using

App.77a
their facility consent. Defs. Ex. 13, Dkt. No. 266-8
pgs. 1-8.12 Defendants contend that a provider
commented that he/she may be willing to be “creative”
on a case-by-case basis, but the provider was responding
to a question about doctors using digoxin in general.
Defs. Ex. 9, Dkt. No. 266-4 pg. 13. And while defendants
characterize that provider as assenting to being
“creative,” so that BioMax could “keep them happy
financially” (Oppo. Br. at 11-12), the actual discussion
was about off-setting the disruption that third-party
technicians can have on clinic operations and keeping
those disruptions to a minimum. Id. at p. 14.
In a different conversation, defendants characterize
a provider as agreeing to discuss ways in which a
financial transaction would be structured to make it
look like a clinic was not selling tissue. Oppo. Br. at
12. The unidentified female (there is no indication of
where she works or what role she plays) simply
responds to Tennenbaum’s suggestions that in response
to payment for tissue from BioMax the clinic could
offer its services for less money or provide transportation for the patients, with an interested but
non-committal response and clarified “that’s something we’d have to figure out how to do that.” Defs.
Ex. 14, Dkt. No. 266-9 pgs. 1-4. Another provider
admits that doing intact D&Es for research purposes
would “be challenging” and explained that there are
layers of people and approvals at the clinic before any
agreements to work with a bioprocurement lab could
be reached. Defs. Ex. 9, Dkt. No. 266-4 pgs. 8-9.

12 There is no evidence that a desire to secure more fetal tissue
samples caused the clinic to alter its procedures.

App.78a
Defendants state that a provider responded to
Tennenbaum’s comment that with the right vision an
arrangement can be “extremely financially profitable,”
with “we certainly do” have that vision. Oppo. Br. at
12. But defendants omit that the context of the conversation was the “waste” of fetal tissue that could
otherwise be going to research. Defs. Ex. 9, Dkt. No.
266-4 pgs. 2-3. In the excerpt relied on by defendants,
after Tennenbaum mentioned the profit she went
onto describe tissue donation working for those that
have the “vision and the passion for research.” The
provider responded, “Which we certainly do.” Id. p. 2.
Similarly, while defendants are correct that a provider did say, “if guys it looks like you’d pay me for
[fetal tissue], that would be awesome,” but omit that
the provider preceded that comment with “I would
love to have it [the fetal tissue] go somewhere” and
that the provider was excited about the possibility of
the tissue going to be used in research to be “doing
something.” Defs. Ex. 15, Dkt. No. 266-10. pgs. 1-2.
Defendants cite a handful of similar discussions—where “profit” “sale” or “top dollar” are terms
used by Daleiden or Tennenbaum and then providers
at some point following that lead in the conversation
express general interest in exploring receiving payment for tissue—but those conversations do not show
that any clinic is making a profit off of tissue donations or that the providers are agreeing to a profitmaking arrangement.13 Defendants are correct that
13 Some of defendants’ citations are to comments about providers
performing abortions differently, not in terms of gestational
timing, but in terms of attempting to keep tissue samples more
intact during the procedure if those samples might be of use for
research. Oppo. Br. at 12-13. There is no argument that taking

App.79a
one provider indicates it received $6,000 a quarter
from a bioprocurement lab, but there is no discussion
showing that amount is profit (in excess of the costs
of having third-party technicians on site and providing
access and storage for their work). Defs. Ex. 21, Dkt.
No. 267-2 p.2. An employee of a bioprocurement lab
also agrees in response to statements from Tennenbaum
that the clinics know it is “financially profitable” for
them to work with bioprocurement labs and that
arrangement helps the clinics “significantly.” Defs.
Ex. 23, Dkt. No. 267-4 p. 2.
Having reviewed the records or transcripts in
full and in context, I find that no NAF attendee
admitted to engaging in, agreed to engage in, or expressed interest in engaging in potentially illegal
sale of fetal tissue for profit. The recordings tend to
show an express rejection of Daleiden’s and his
associates’ proposals or, at most, discussions of interest in being paid to recoup the costs incurred by clinics
to facilitate collection of fetal tissue for scientific
research, which NAF argues is legal. See, e.g., Foran
PI Decl. ¶ 79(I) (Sub-bates: 14-147; Time Stamp
05:56:00-05:57:00 (Dr. Nucatola identifying an “ethical
problem” with Daleiden’s payment proposal: “We just
really want the affiliates to be compensated in a way
that is proportionate to the amount of work that’s
those steps violates any law. Defendants also cite provider
comments—for example, an abortion provider engaging in
conduct “under the table” to get around restrictions—which do
not show up in the transcript excerpts they refer to. Oppo. Br. at
13. Finally, defendants rely on comments—from panel presentations
and individual conversations—where providers express the
personal and societal difficulties they face in performing abortions.
There is no indication in those comments of any illegal conduct.
Oppo. Br. at 12, 14-15.

App.80a
required on their end to do it. In other words, we
don’t see it as a money making opportunity. That’s
not what it should be about.”); Foran PI Decl. ¶ 79(K)
(Sub-bates: 15-203; Time Stamp: 12:09:00-12:10:21)
(NAF attendee responding to Tennenbaum’s proposal”
“Do the patients get any reimbursement? No, you
can’t pay for tissue, right. You can’t pay for tissue.”);
Foran PI Decl. ¶ 79(M) (Sub-bates: 15-010; Time
Stamp: 24:29-25:43) (NAF attendee responds that “we
cannot have that conversation with you about being
creative,” because it “crosses the line.”); Foran PI
Decl. ¶ 79(N) (Sub-Bates: 15-010; Time Stamp: 59:181:04:32) (NAF attendee responding to Tennenbaum
with, “No profiteering or appearance of profiteering
. . . we need it to be a donation program rather than
a business opportunity.”).
Defendants also gathered confidential NAF and
NAF-member materials at the Annual Meetings,
including lists and biographies of NAF faculty and
contact information for NAF members. Foran PI Decl.
¶ 3; Pl. Ex. 56 at 3; Pl. Ex. 58.
Following the 2014 Annual Meeting, Daleiden
followed up with the “targets” he met at the Meeting,
in part to set up meetings with abortion providers,
including Dr. Deborah Nucatola.14 Pl. Exs. 26 (list of
“targets”), 36, 59-61, 64-65, 67-69; Daleiden Depo.
257-259, 265-269. As he explained to his supporters
and funders in a report prepared following the 2014
Meeting—in which he shared some of the confidential
NAF information that had been collected at that
14 Dr. Nucatola was identified by defendants as a key target
and the Senior Director of Medical Services for Planned Parenthood. Pl. Ex. 26.

App.81a
meeting—he was able to secure the follow up meetings
because, following its attendance at the 2014 Annual
Meeting, “BioMax is now a known and trusted entity
to many key individuals in the upper echelons of the
abortion industry.” Pl. Ex. 26; see also Pl. Exs. 59-63
(emails to targets referencing their meeting at NAF);
Pl. Ex. 64 (email to Dr. Nucatola); Daleiden Depo. at
253-259 (Daleiden’s follow up with Dr. Nucatola); Pl.
Ex. 67 ¶¶ 3-4 (StemExpress representative explaining
her initial meeting with Daleiden at the NAF 2014
Annual Meeting, as the reason a subsequent meeting
was arranged); Daleiden Tr. at 271-274 (discussing
his follow up communications with StemExpress
representatives). In a recording following Daleiden
and Tennenbaum’s meeting with StemExpress representatives, Daleiden credited the ability to secure
that meeting to “because like we’ve been at NAF.
Like, we’re so vetted and so like.” Foran PI Decl. ¶ 12;
Pl. Ex. 70 at FNPB029820150522190849.avi at
19:13:00-19:15:00).
III. Defendants Release Human Capital Project Videos
On July 14, 2015, CMP released two videos of a
lunch meeting that Daleiden had with Dr. Nucatola,
a “key” target from the 2014 NAF Annual Meeting.
Daleiden PI Decl. ¶ 25; Pl. Ex. 26. Daleiden testified
that one of the videos “contained the entire conversation
with Nucatola” and the other was “a shorter summary
version of the highlights from the conversation.” Id.
CMP issued a press release in conjunction with the
release of these videos entitled “Planned Parenthood’s
Top Doctor, Praised by CEO, Uses Partial-Birth
Abortion to Sell Baby Parts.” Pl. Ex. 66. NAF counters
that the “highlights” video was misleadingly edited
and omits Dr. Nucatola’s comments that “nobody should

App.82a
be selling tissue. That’s just not the goal here,” and
her repeated comments that Planned Parenthood would
not sell tissue or profit in any way from tissue donations. Foran TRO Decl. Ex. 18 at 7, 21-22, 25-26, 34,
48, 52-54.
On July 21, 2015, CMP released two more videos:
a 73-minute video and a shorter “highlights summary”
from Daleiden’s lunch meeting with Planned Parenthood “staff member” Dr. Mary Gatter. Daleiden PI
Decl. ¶ 26. CMP issued a press release in conjunction
with the release of these videos entitled “Second
Planned Parenthood Senior Executive Haggles Over
Baby Parts Prices, Changes Abortion Methods.” Pl.
Ex. 71. NAF again contends the “highlight” video was
misleadingly edited, including the omission of Dr.
Gatter’s comments that tissue donation was not about
profit, but “about people wanting to see something
good come out” of their situations, “they want to see a
silver lining. . . . ” Pl. Ex. 82 at NAF0001395.
CMP has continued to release other videos as part
of the Project, including one featuring a site visit to
Planned Parenthood Rocky Mountains, where Savita
Ginde is Medical Director. Daleiden PI Decl. ¶ 27. On
July 30, 2015, CMP issued a press release in conjunction with the release of this video entitled “Planned
Parenthood VP Says Fetuses May Come Out Intact,
Agrees Payments Specific to the Specimen.” Pl. Ex.
74.15
15 See also Pl. Ex. 74 (CMP press release on fifth Project video;
“‘Intact Fetal Cadavers’ at 20 Weeks ‘Just a Matter of Line
Items’ at Planned Parenthood TX Mega-Center; Abortion Docs
Can ‘Make it Happen.’”); Pl. Ex. 69 (CMP press release on
eighth Project video; “Planned Parenthood Baby Parts Buyer
StemExpress Wants ‘Another 50 Livers/Week,’ Financial Benefits

App.83a
Daleiden asserts that when CMP released the
“highlight” or summary videos, CMP also released “full”
copies of the underlying recordings. Daleiden PI Decl.
¶¶ 25-27. NAF has submitted a report by Fusion GPS,
completed at the request of counsel for Planned
Parenthood, analyzing the videos released by CMP and
concluding that there is evidence that CMP edited
content out of the “full” videos and heavily edited the
short videos “so as to misrepresent statements made
by Planned Parenthood representatives.” Pl. Ex. 77;
see also Pl. Exs. 78-79.16
The day before the first set of videos was released,
CMP put together a press kit with “messaging
guidelines” that was circulated to supporters. Pl. Ex.
135; Deposition Transcript of Charles C. Johnson (Dkt.
No. 255-11) 70:22-71:19. In those guidelines, defendants
assert that their aim for the Project is to create
“political pressure” on Planned Parenthood, focusing
on “Congressional hearings/investigation and political
consequences for” Planned Parenthood such as
defunding and abortion limits. Pl. Ex. 135.
To be clear, the videos released by CMP as part
of the Project to date do not contain information

for Abortion Clinics.”); Pl. Ex. 75 (CMP press release on ninth
Project video; “Planned Parenthood Baby Parts Vendor ABR Pays
Off Clinics, Intact Fetuses ‘Just Fell Out.’”); Pl. Ex. 76 (CMP
press release on tenth Project video; “Top Planned Parenthood
Exec Agrees Baby Parts Sales ‘A Valid Exchange,’ Some Clinics
‘Generate a Fair Amount of Income Doing This.’”).
16 Defendants object to Exhibits 78-79 as inadmissible hearsay,
for lack of personal knowledge and authentication, and improper
expert testimony. Those objections are overruled.

App.84a
recorded during the NAF Annual Meetings.17 With
respect to the NAF material covered by the TRO and
at issue on the motion for a preliminary injunction,
Daleiden affirms that other than: (i) providing a
StemExpress advertisement from the NAF 2014 Annual
Meeting program to law enforcement in El Dorado
County, California in May 2015; (ii) short clips of
video to law enforcement in Texas in June or July 2015;
(iii) providing the 504 hours of recordings in response
to the Congressional subpoena; and (iv) providing a
short written report to CMP donors in April 2014,
“Daleiden and CMP have made no other disclosures
of recordings or documents from NAF meetings.”
Daleiden PI Decl. ¶ 24. However, a portion of the NAF
materials were leaked and posted on the internet on
October 20 and 21, 2015.18
17 NAF contends that the meetings Daleiden had with Doctors
Nucatola, Gatter, and Ginde that resulted in the CMP videos
would not have been possible without BioMax having fraudulently
gained access to NAF’s Annual Meetings and, thereby, appearing to
be a legitimate operation.
18 This leak occurred after defendants produced NAF materials
covered by the TRO to Congress. NAF argues—and moves for
an Order to Show Cause asking me to sanction defendants—
that defendants violated my order and the TRO by producing to
Congress NAF audio and video recordings that were not directly
responsive to the Congressional subpoena. See Dkt. Nos. 155,
222. NAF complains that as a result of this “over production,”
the subsequent leak included NAF Materials that had nothing
to do with alleged criminal activity. I heard argument on this
motion on December 18, 2015. Dkt. No. 310. Having considered
the representations of defense counsel, I DENY the motion for
an order to show cause. Defendants did produce materials that
were not covered by the subpoena, but were covered by the TRO,
contrary to my Order allowing a response to the subpoena. Dkt.
No. 155. Defense counsel did so because in light of their conver-

App.85a
IV. Impact of Disclosures on NAF and Its Members
NAF is a not-for-profit professional association
of abortion providers, including private and non-profit
clinics, Planned Parenthood affiliates, women’s health
centers, physicians’ offices, and hospitals. Declaration
of Vicki Saporta (Dkt. No. 3-34) ¶ 2. It sets standards
for abortion care through Clinical Policy Guidelines
(CPGs) and Ethical Principles for Abortion Care, and
develops continuing medical education and training
programs and educational resources for abortion
providers and other health care professionals. Id. ¶ 3.
NAF also implemented a multi-faceted security
program to help ensure the safety of abortion providers
by putting in place reference, security, and confidentiality requirements for its membership and for
attendance at its Meetings. Id. ¶¶ 10-14; Declaration of
Mark Mellor (Dkt. No. 3-33) ¶ 5-12. NAF tracks
security threats to abortion providers and clinics, and
offers technical assistance, on-site security training,
and assessments at facilities and homes of clinic
staff, as well as 24/7 support to its members when
they are “facing an emergency or are targeted. Id.
¶ 10, 15; see also Declaration of Derek Foran in
Support of TRO (Dkt No. 3-2) ¶ 6 & Ex 2 (NAF statistics
documenting more than 60,000 incidents of harassment,
intimidation, and violence against abortion providers,
including murder, shootings, arson, bombings, chemical
sations with Congressional staffers, they believed Congress wanted
“unedited” recordings, which defense counsel interpreted to
mean the whole batch of recordings, even those where fetal tissue
was not being discussed. At the hearing I cautioned defense
counsel that in the future, before they take it upon themselves
to arguably violate an order from this Court—even if in good
faith—they should seek clarification from me first.

App.86a
and acid attacks, bioterrorism threats, kidnapping,
death threats, and other forms of violence between
1997 and 2014).
Following the release of the videos in July 2015,
the subjects of those videos (including Doctors
Nucatola, Gatter, and Ginde), have received a large
amount harassing communications (including death
threats). Pl. Exs. 80-81 (internet articles and threats
by commentators), 83-91; see also Saporta Decl. ¶ 19.
Incidents of harassment and violence directed at
abortion providers increased nine fold in July 2015,
over similar incidents in June 2014. Pl. Ex. 92. The
incidents continued to sharply rise in August 2015.
Pl. Ex. 93. The FBI has also reported seeing an increase
in attacks on reproductive health care facilities. Pl.
Ex. 94.19 Since July 2015, there have also been four
incidents of arson at Planned Parenthood and NAFmember facilities. Saporta Depo. at 42:1-10; Pl. Exs.
96-99.20 Most significantly, the clinic where Dr.
Ginde is medical director—a fact that was listed on
the AbortinDocs.org website operated by defendant
Newman’s Operation Rescue group—was attacked by a

19 Defendants object to Exhibits 92-94 on the grounds that Foran
lacks personal knowledge and cannot authenticate the exhibits,
as hearsay, and on relevance. Those objections are overruled.
20 Defendants object to Exhibits 96-99 as inadmissible hearsay,
lack of personal knowledge, lack of authentication, irrelevant
and prejudicial. Those objections are overruled. Defendants also
filed a motion to supplement the Preliminary Injunction record
with a news article indicating the individual arrested in connection
with the fire at the Thousand Oaks Planned Parenthood office
was not motivated by politics, but by a “domestic feud.” Dkt. No.
322. That motion is GRANTED.

App.87a
gunman, resulting in three deaths. Pl. Exs. 18, 20,
21, 22, 148.21
NAF’s President and CEO testified that there “has
been a dramatic increase” in harassment since July
14, 2015, and the “volume of hate speech and threats
are nothing I have ever seen in 20 years.” Pl. Ex. 95
(Deposition Transcript of Vicki Saporta) at 16:17-23,
39:13-20; see also id. at 43:15-18 (“We have uncovered
many, many direct threats naming individual providers.
Those providers have had to undergo extensive security
precautions and believe they are in danger.”). In
response, NAF hired and committed additional staff
to monitoring the internet for harassment and threats.
Saporta Depo. at 38:2-20. NAF’s security team has
also seen an increase in off-hour communications from
members about security. Mellor Decl. ¶ 15. As a result,
NAF has been forced to take increased security measures at increased cost, has cut back on its communications with members, and alerted hotel staff and
security for its upcoming events that those meetings
have been “compromised.” Id. ¶ 15.
Two NAF members also submit declarations in
support of NAF. Jennifer Dunn, a law professor,
submits a declaration explaining her expectation that
she was filmed during the 2014 Annual Meeting during
a panel presentation and that following the release of
the CMP videos, she took steps to protect the safety
and privacy of her family. Declaration of Jennifer T.
Dunn (Dkt. No. 3-31) ¶ 10.22 She explains that she is
21 Defendants object to Exhibit 148 as irrelevant and inadmissible
hearsay. Those objections are overruled.
22 Defendants object to paragraph 10 of Dunn’s declaration as
lacking in personal knowledge, improper expert testimony, inad-

App.88a
fearful that CMP may release a misleading and highly
edited video featuring some or all of her panel
presentation that would open her up to the sort of
public disparagement and intimidation she saw directed
towards Doctors Nucatola and Gatter after the CMP
videos were released. Id. ¶¶ 9-10.
Dr. Matthew Reeves, the medical director of NAF,
submits a declaration explaining his understanding
that Daleiden filmed conversations with him during
the 2014 Annual Meeting. Declaration of Dr. Matthew
Reeves (Dkt. No.) ¶¶ 12-16.23 Dr. Reeves explains that
he has witnessed “the terrible reaction towards the
prior doctors” who were featured in CMP’s videos and
he expects he “will suffer similar levels of reputational
harm should a heavily edited and misleading video of
me be released.” Id. ¶ 17. Because of his expectation
that defendants could “target” him, since the release
of the videos, he had his home inspected by NAF’s
security team and is installing a security system, but
given the current atmosphere he remains fearful for
his safety and that of his family. Id. ¶¶ 19, 21.
V.

Temporary Restraining Order and Preliminary
Injunction

On July 31, 2015, based on an application from
NAF and after reviewing the preliminary evidentiary
record, I granted NAF’s request and entered a Temmissible hearsay, and improper opinion. Those objections are
overruled.
23 Defendants object to paragraph 12 of Dr. Reeves declaration
as speculative, improper expert testimony, improper opinion
testimony, and for lack of personal knowledge. Those objections
are overruled.

App.89a
porary Restraining Order that restrained and enjoined
defendants and their officers, agents, servants, employees, and attorneys, and any other persons who are in
active concert or participation with them from:
(1) publishing or otherwise disclosing to any
third party any video, audio, photographic,
or other recordings taken, or any confidential
information learned, at any NAF annual
meetings;
(2) publishing or otherwise disclosing to any
third party the dates or locations of any
future NAF meetings; and
(3) publishing or otherwise disclosing to any
third party the names or addresses of any
NAF members learned at any NAF annual
meetings.
Dkt. No. 15. On August 3, 2015, after reviewing the
arguments and additional evidence submitted by
defendants, I issued an order keeping the TRO in place
pending the hearing and ruling on NAF’s motion for
a preliminary injunction. Dkt. No. 27. On August 26,
2015, I entered a stipulated Protective Order, which
provided that before responding to any subpoenas from
law enforcement entities for information designated
as confidential under the Protective Order, the party
receiving the subpoena must notify the party whose
materials are at issue and inform the entity that
issued the subpoena that the materials requested are
covered by the TRO. Dkt. No. 92 ¶ 9. The purpose of
the notice provision is to allow the party whose confidential materials are sought the opportunity to
meet and confer and, if necessary, seek relief from

App.90a
the subpoena in the court or tribunal from which the
subpoena issued. Id.
In NAF’s motion for preliminary injunction, NAF
asks me to continue in effect the injunction provided
in the TRO, but also to expand the scope to include
the following:
(4) enjoin the publication or disclosure of any
video, audio, photographic, or other recordings
taken of members or attendees Defendants
first made contact with at NAF meetings;
and publishing or otherwise disclosing to
any third party the dates or locations of any
future NAF meetings; and
(5) enjoin the defendants from attempting to gain
access to any future NAF meetings.
Motion (Dkt. No. 228-4) at i.
Legal Standard
“‘A plaintiff seeking a preliminary injunction
must establish that he is likely to succeed on the
merits, that he is likely to suffer irreparable harm in
the absence of preliminary relief, that the balance of
equities tips in his favor, and that an injunction is in
the public interest.’” Alliance for the Wild Rockies v.
Cottrell, 632 F.3d 1127, 1131 (9th Cir. 2011) (quoting
Winter v. Nat. Res. Def. Council, Inc., 555 U.S. 7
(2008)). Where an injunction restrains speech, a
showing of “exceptional” circumstances may be
required, as the Reporters Committee for Freedom of
the Press pointed out.24 See, e.g., Bank Julius Baer
24 The Reporters Committee for Freedom of the Press resubmitted
their motion asking the Court to consider their amici curiae

App.91a

& Co. Ltd v. Wikileaks, 535 F. Supp. 2d 980, 985 (N.D.
Cal. 2008). On this record, I conclude that exceptional
circumstances exist, meriting the continuation of
injunctive relief pending final resolution of this case.
Discussion
I.

Likelihood of Success

NAF’s Amended Complaint asserts eleven different
causes of action against the three defendants. Dkt.
No. 131. In moving for a preliminary injunction, NAF
rests on only two—breach of contract and violation of
California Penal Code section 632—to argue its
likelihood of success on the merits.
A. Breach of Contract
Under California law, to succeed on a breach of
contract claim, a plaintiff must prove: (1) the existence
of a contract, (2) plaintiff performed or is excused for
nonperformance, (3) defendant’s breach, and (4)
resulting damages to plaintiff. See, e.g., Reichert v.
Gen. Ins. Co. of Am., 68 Cal. 2d 822, 830 (1968). NAF
argues that defendants’ conduct: (i) breached the
EAs, by misrepresenting BioMax and their own
identities; (ii) breached the EAs and CAs by secretly
recording during the Annual Meetings; and (iii)
breached the EAs and CAs by disclosing and publishing
NAF’s confidential materials.

letter brief. Dkt. No. 287. I GRANT that motion and consider
the Reporters Committee letter, as well as NAF’s response, and
the Reporters Committee’s reply. Dkt. Nos. 109, 111, 114, 287.

App.92a
1. Existence of a Contract; Consideration for
the Confidentiality Agreements
Defendants argue that NAF cannot enforce the CA
because that particular agreement was not supported
by consideration for the 2014 or 2015 Meetings. See
Chicago Title Ins. Co. v. AMZ Ins. Servs., Inc., 188
Cal. App. 4th 401, 423 (2010) (“Every executory contract
requires consideration, which may be an act,
forbearance, change in legal relations, or a promise.”).25
They contend that the only document that needed to
be signed to gain access to the NAF Meetings was the
EA. Therefore, according to defendants, there was no
separate consideration given with respect to the CAs
that were signed by or sought from the attendees at
the NAF registration tables because NAF already had
a legal obligation to permit them access to the meetings.
Oppo. Br. at 19-20.
Defendants’ argument is not supported by the
facts. The EAs on their face provided access to the
exhibition area (“Exhibit Rules and Regulations”)
and also required that any exhibitor’s representatives
be registered for the NAF Annual Meetings. Pl. Exs.
3,4. The CAs were required as part of the registration
for the NAF Annual Meeting, and NAF’s evidence
demonstrates that no one was supposed to be allowed
into the Meetings unless their identification was
checked and they signed a CA. Declaration of Mark
Mellor (Dkt. No. 3-33) ¶ 11; Dunn Decl. ¶ 6; see also
Foran PI Decl. ¶ 79(C) (Sub-Bates 15-062; Time stamp:
25 Defendants make no argument that the EA was not supported
by consideration. It plainly was; access to the exhibition hall in
exchange for submission of the Application and payment of the
exhibitor fee.

App.93a
14:56:02-14:56:50) (NAF representative confirming
that Daleiden and associates had their identification
checked and signed confidentiality agreements).
Nothing in the language of the EAs or CAs, or the
other facts in the record, support defendants’ argument
that upon signing the EAs, NAF had the legal obligation
to permit Daleiden’s group access to the meetings
without further requirement.
Other than lack of consideration, the only other
argument defendants appear to make with respect to
the CA is that the CA cannot be enforced against
Daleiden and two of his associates (Tennenbaum and
Allen) because they did not execute CAs for the 2015
NAF Annual Meeting. Oppo. Br. at 19-20 & fn. 7. As
an initial matter, there is no dispute that everyone in
Daleiden’s group signed the CAs for the 2014 Meeting.
There is also no dispute that the reason Daleiden
and two of his associates did not sign the CAs for the
2015 Meeting is that Daleiden lied about it to a NAF
representative. Foran PI Decl. ¶ 79(C) (Sub-Bates 15062; Time stamp: 14:56:02-14:56:50). There is likewise
no dispute that at least one of the CMP associates
working at Daleiden’s direction, “Lopez,” signed the
2015 CA. Given these facts, on this record, the 2015
CA can be enforced against defendants for purposes
of determining likelihood of success on NAF’s breach
of contract claim.
I find that NAF has shown a likelihood of success
on their breach of contract claim based on the 2014
and 2015 CAs.

App.94a
2. Whether Defendants’ Conduct Breached
the EA
Defendants argue that NAF cannot prevail on
its claim that defendants misrepresented themselves
in violation of the EA because Paragraph 15 of the
EA only requires Exhibitors to “identify, display, and/
or represent their business, products, and/or services
truthfully, accurately, and consistently with the
information provided in the Application.” Defendants
contend that this requirement applies only to BioMax,
not Daleiden and his associates “individually,” and
that NAF is attempting to base its breach claim on
representations defendants made about BioMax and/
or CMP outside of the NAF Annual Meetings. Oppo.
Br. at 20-21.
By signing the EA on behalf of a fake company,
defendants CMP and Daleiden necessarily violated
paragraph 19 of the EA, which required the signatory’s
affirmation that the information in the Agreement,
as well as any information displayed at the Meetings,
was “truthful, accurate, complete, and not misleading.”
Pl. Exs. 3,4. Similarly, by signing the EA and then
displaying and representing false and inaccurate
information about BioMax at the Meetings, defendants
CMP and Daleiden violated paragraph 15 as well.26
26 Defendants assert in their brief, without any citation to
evidence, that BioMax’s “business” was to “assess the market
for clinics and abortion providers willing to partner with it in
buying and selling fetal tissue.” Oppo. Br. at 21. This post-hoc
rationalization is contrary to the defendants’ own contemporaneous
statements and their statements on the EAs themselves which
required the applicant to “5. List the products or services to be
exhibited” and which Daleiden filled out as “biological specimen
procurement, stem cell research” and “fetal tissue procurement,

App.95a
Defendants’ conduct with respect to the information
they conveyed in the EA and their conduct at the NAF
meeting is sufficient—on this record—to show a
violation of that agreement, regardless of how defendants may have portrayed BioMax outside of the NAF
Meetings.
Defendants’ argument that paragraph 15 of the
EA restricts the remedies NAF can seek for breach to
cancellation of the EA and removal of exhibits at the
Meetings, and excludes the injunctive relief sought in
this motion is likewise without support. Defendants
continue to ignore paragraphs 18 and 19, which provide
that if there is a breach of the EA, NAF is entitled to
seek specific performance, injunctive relief and “all
other remedies available at law or equity.” Pl. Exs.
3,4.
On the record before me, NAF has a strong
likelihood of success on its argument that defendants
breached the EA for the 2014 and 2015 NAF Annual
Meetings.27

human biospecimen procurement.” Pl. Exs. 3,4; see also Pl. Ex.
26 (describing BioMax as a “front organization.”).
27 Defendants also argue that their recordings could not have
violated the EA because the EA did not prohibit audio and video
recording, it only prohibited photography. Oppo. Br. at 19-20;
EA at ¶ 13. Disputes over whether a ban on “photography”
would prohibit video and audio recording aside, the CAs clearly
prohibited all forms of recording and are enforceable against
defendants, even for the 2015 meeting as discussed above. In a
footnote, defendants assert that the CAs should be read as
limiting the prohibition on recording to only formal sessions at
the Meetings and not informal discussions. Oppo. Br. at 20, fn.
8. That argument is not supported. There is nothing in the text
of the CA that indicates that “discussions” is limited to formal

App.96a
3. Scope and Reasonableness of the EA
Defendants argue that the EA is unenforceable
because it is overbroad, imprecise, and unreasonable.
Specifically, they rely on NAF’s characterization of
the EA (and presumably the CA as well) as “broad”
and encompassing all NAF communications and things
learned at the NAF Meetings to argue that the EA’s
breadth is problematic.
That a confidentiality provision is broad does not
mean it is unenforceable. The cases cited by defendants
on this point are not to the contrary.28 For example,
in Wildmon v. Berwick Universal Pictures, 803 F. Supp.
1167, 1178 (N.D. Miss.) aff’d, 979 F.2d 209 (5th Cir.
1992), after applying Mississippi’s contract interpretation doctrine and determining that the contract
language was ambiguous, the Court concluded that
“an ambiguous contract should be read in a way that
allows viewership and encourages debate.” The
problem in Wildmon was not breadth, but ambiguity.
In In re JDS Uniphase Corp. Sec. Litig., 238 F.
Supp. 2d 1127 (N.D. Cal. 2002), a securities class action,
the state of Connecticut moved the court to limit the
scope of a confidentiality agreement the employer
imposed on its employees so that the employees could
respond to a state investigation. The court concluded,
panel or workshop presentations and does not encompass
information that is conveyed outside of those “formal” events.
28 Cf. Coast Plaza Doctors Hosp. v. Blue Cross of California, 83
Cal. App. 4th 677, 684 (2000), as modified (Sept. 7, 2000) (giving
full effect to “contractual language [that] is both clear and plain.
It is also very broad. In interpreting an unambiguous contractual
provision we are bound to give effect to the plain and ordinary
meaning of the language used by the parties.”).

App.97a
to “the extent that those agreements preclude former
employees from assisting in investigations of
wrongdoing that have nothing to do with trade secrets
or other confidential business information, they conflict with the public policy in favor of allowing even
current employees to assist in securities fraud
investigations.” Id. at 1137. The considerations the
court addressed in In re JDS Uniphase Corp. Sec.
Litig that led it to limit the scope of the employee
confidentiality agreement may have some persuasive
value with respect to the interests of the Attorney
General amici discussed below, but do not weigh
against enforcement of NAF’s confidentiality agreements against defendants generally. This is especially
true considering that there are significant, countervailing public policy arguments weighing in favor of
enforcing NAF’s confidentiality agreements. See, e.g.,
Cal. Govt. Code § 6215(a) (recognizing that persons
working in the reproductive health care field, specifically the provision of terminating a pregnancy, are
often subject to harassment, threats, and acts of
violence by persons or groups).
The final case relied on by defendants in support
of their argument that the EA should be interpreted
narrowly, consistent with the public’s interest in
hearing speech on matters of public concern, did not
address a confidentiality agreement at all. See Curtis
Pub. Co. v. Butts, 388 U.S. 130, 145 (1967). The Curtis
case found that absent clear and compelling circumstances, the Court would not find that a defendant
had waived a First Amendment defense to libel (where
that specific defense had not been established by the
Supreme Court at the time of defendants’ libel trial).

App.98a
Defendants also rely on established case law
directing courts to interpret ambiguous contracts in a
manner that is reasonable and does not lead to absurd
results. Oppo. Br. at 22-23. Defendants argue that
the broad coverage NAF contends the EA imposes on
defendants is unreasonable and absurd because NAF’s
interpretation of the broad scope of the EA would
cover all information discussed at NAF’s Meetings,
even publicly known information. Oppo. at 22-23.
Defendants’ argument might have some merit if it was
made concerning a challenge to the application of the
EAs’ confidentiality provisions with respect to specific
pieces or types of information that are otherwise
publicly known or intended by NAF to be shared with
individuals not covered by the EA. Defendants do not
make that type of “as applied,” narrow argument.
Instead, they argue that the whole EA is unenforceable.
There is no legal support for that result or for
defendants’ speculation that the EA might be enforced
in an unreasonable manner against other NAF
attendees.29
4. What Information is Covered by EA
Defendants argue that even if enforceable, the
EA should be read to create confidentiality only for
the information provided by NAF in formal sessions
29 I agree with defendants that NAF’s intent with respect to
the EA and CA is irrelevant for purposes of this motion. Under
California contract law, intent comes into play only when
contract language is ambiguous. There is no ambiguity concerning
meaning of the EA or CA with respect to defendants’ conduct
here and, therefore, no need to construe otherwise ambiguous
terms against the drafter. But see Rebolledo v. Tilly’s, Inc., 228
Cal. App. 4th 900, 913 (2014) (“ambiguities in standard form
contracts are to be construed against the drafter.”).

App.99a
and should not be construed to cover information
provided by conference attendees in informal conversations. Oppo. Br. at 26-27. Defendants rely on the
two portions of paragraph 17 of EA for their restrictive interpretation of its coverage; they argue that
paragraph 17 only restricts disclosure of information
“NAF may furnish” and “written information provided
by NAF.” Those provisions, defendants say, should be
read to modify “any information which is disclosed
orally or visually.” Taken together, defendants argue,
this language “connotes formality” and therefore
should cover only oral and visual information provided
in formal sessions at the Meetings. Oppo. Br. at 26.
As an initial matter, defendants wholly ignore
the provision in the EAs that signatories agree—on
behalf of entities and their employees and agents—to
“hold in trust and confidence any confidential
information received in the course of exhibiting at
the NAF Annual Meeting and agree not to reproduce
or disclose confidential information without express
permission from NAF.” Pl. Exs. 3,4. The only reason
defendants gained access to the NAF Annual Meetings
was under their guise as exhibitors and all information
they received was in the course of that role, even if
gathered in places other than the exhibition hall.
Moreover, defendants’ constrained reading of paragraph
17 is illogical. The text of paragraph 17, when read as
a whole, covers all written, oral, and visual information,
and the “formality” of the language does not restrict
its requirements to only the “formal” workshops and
presentations as argued by defendants.30
30 The same is true of defendants “implications of formality”
argument made with respect to the CAs in a footnote. See Oppo.
Br. at 27, n.12.

App.100a
In sum, on the record before me, NAF has demonstrated a strong likelihood of success on its breach
of contract claims both with respect to the EAs that
were signed by all CMP operatives in 2014 and 2015,
and with respect to the CAs that were signed by
Daleiden and his associates in 2014 and signed by
Lopez in 2015.
B. California Penal Code Section 632
NAF also contends that it has demonstrated a
likelihood of success on its claim that defendants
violated California Penal Code section 632. That provision makes it a crime to, “without the consent of all
parties to a confidential communication, by means of
any electronic amplifying or recording device,
eavesdrops upon or records the confidential communication, whether the communication is carried on among
the parties in the presence of one another or by
means of a telegraph, telephone, or other device.” Cal.
Penal Code § 632(a). “The term ‘confidential communication’ includes any communication carried on in
circumstances as may reasonably indicate that any
party to the communication desires it to be confined to
the parties thereto, but excludes a communication
. . . in any other circumstance in which the parties to
the communication may reasonably expect that the
communication may be overheard or recorded.” Id.
§ 632(c). And “[e]xcept as proof in an action or
prosecution for violation of this section, no evidence
obtained as a result of eavesdropping upon or recording
a confidential communication in violation of this section shall be admissible in any judicial, administrative, legislative, or other proceeding.” Id. § 632(d).

App.101a
Defendants argue that because section 632 does
not prohibit publication of recordings made in violation
of the statute, NAF cannot justify an injunction against
defendants based upon an alleged violation of that
statute. Indeed, California courts have held that
“Penal Code section 632 does not prohibit the disclosure
of information gathered in violation of its terms.”
Lieberman v. KCOP Television, Inc., 110 Cal. App.
4th 156, 167 (2003); cf. Kight v. CashCall, Inc., 200
Cal. App. 4th 1377, 1393 (2011) (“Although a recording
preserves the conversation and thus could cause greater
damage to an individual’s privacy in the future, these
losses are not protected by section 632.”).
In reply, NAF argues that its section 632 claim
is not being asserted as a basis for enjoining release
of the recordings already made, but in support of its
request that defendants be enjoined from “attempting
to gain access to any future NAF meetings in order to
tape its members, a form of relief specifically provided
under § 637.2(b) (“Any person may . . . bring an action
to enjoin and restrain any violation of this chapter,
and may in the same action seek damages as provided
by subdivision (a).”).
Penal Code section 632, therefore, is not relevant
to NAF’s chances of success on the merits, but only
with respect to the appropriate scope of injunctive
relief, discussed below.31
31 Both sides spend much time arguing whether section 632
prohibits recording panel presentations as opposed to conversations
between individuals, because section 632’s protections only
extend to information as to which the speaker has a “reasonable
expectation” of privacy. I need not reach these arguments as
NAF no longer asserts section 632 as a ground for its likelihood
of success on this motion.

App.102a
C. The First Amendment and Public Policy
Implications of the Requested Injunction
Defendants argue that, assuming NAF demonstrates a likelihood of success on the breach of contract claim, the EAs and CAs should not be enforced
through an injunction prohibiting defendants from
publishing the recordings because that is an unjustified
prior restraint and against public policy. NAF counters
that even if First Amendment issues are raised by
the injunction it seeks, any right to speech implicated
by publishing the NAF recordings has been waived by
defendants knowing agreement to the EAs and CAs.
NAF relies primarily on a line of cases holding
that where parties to a contract agree to restrictions
on speech, those restrictions are generally upheld.
For example, in Leonard v. Clark, the Ninth Circuit
addressed a union and union members’ challenge to a
Collective Bargaining Agreement that arguably
restricted their First Amendment rights to petition
the government. 12 F.3d 885, 886 (9th Cir. 1993), as
amended (Mar. 8, 1994). The court, following Supreme
Court precedent, recognized that “First Amendment
rights may be waived upon clear and convincing
evidence that the waiver is knowing, voluntary and
intelligent,” and concluded that in negotiating the
CBA the union knowingly waived any First Amendment
rights that may have been implicated. Id. at 890.
Other cases have likewise found that speech rights
can be knowingly waived. ITT Telecom Prod. Corp. v.
Dooley, 214 Cal. App. 3d 307, 317, 319 (1989)
(recognizing, in a case determining the scope of
California’s litigation privilege, that “it is possible to
waive even First Amendment free speech rights by
contract.”); Perricone v. Perricone, 292 Conn. 187,

App.103a
202 (2009) (Supreme Court of Connecticut enforced
non-disclosure agreement as knowing and voluntary
waiver of First Amendment rights and enjoined ex-wife
from “appearing on radio or television” for purposes
of discussing her former marriage or spouse); Brooks
v. Vallejo City Unified Sch. Dist., No. 2:09-CV-1815
MCE JFM, 2009 WL 10441783, at *5 (E.D. Cal. Oct. 30,
2009) (recognizing, in denying a third-party’s attempt
to secure a copy of a public entities’ settlement agreement with two individual plaintiffs, that individuals
“were entitled to bargain away their free speech
rights by agreeing to confidentiality provisions or
other contractual provisions that restrict free speech”).
Defendants respond that NAF has not shown that
Daleiden knowingly and intelligently waived his First
Amendment rights by signing the NAF confidentiality
agreements, resting their argument on Daleiden’s
position that he believed the agreements were unenforceable and void. Daleiden PI Decl. ¶ 12 (“I understood that no nondisclosure agreement is valid in the
face of criminal activity. In the course of my investigative journalism work, I have seen other confidentiality agreements, all of which were far more specific
and detailed in terms of what the protected information was. I believed the working of the nondisclosure
portions of the Exhibit Agreement was too broad,
vague, and contradictory to be enforced.”). However,
even if Daleiden honestly believed he had defenses to
the enforcement of the confidentiality agreements, there
is no argument—and no case law cited—that his
signature on them and his agreement to them was
not “knowing and voluntary.” Daleiden and his associates chose to attend the NAF Annual Meetings and
voluntarily and knowingly signed the EAs and CAs.

App.104a
Daleiden’s argument would vitiate the enforceability of confidentiality agreements based on an individual’s correct or mistaken belief as to the enforceability of those agreements. It is contrary to wellestablished law. See, e.g., Leonard v. Clark, 12 F.3d
at 890 (“The fact that the Union informed the City of
its view that Article V was ‘unconstitutional, illegal,
and unenforceable’ does not make the Union’s execution of the agreement any less voluntary.”); see also
Griffin v. Payne, 133 Cal. App. 363, 373 (Cal. Ct.
App. 1933) (“A secret intent to violate the law, concealed
in the mind of one party to an otherwise legal contract,
cannot enable such party to avoid the contract and
escape his liability under its terms.”).
Defendants contend that the public policy at
issue—allowing free speech on issues of significant
public importance—weighs against finding a waiver
and/or enforcing the confidentiality agreements. The
Ninth Circuit has recognized that courts should balance
the competing public interests in determining whether
to enforce confidentiality agreements that restrict
First Amendment rights. Leonard, 12 F.3d at 890 (“even
if a party is found to have validly waived a constitutional right, we will not enforce the waiver ‘if the
interest in its enforcement is outweighed in the circumstances by a public policy harmed by enforcement of the
agreement.’”) (quoting Davies v. Grossmont Union
High Sch. Dist., 930 F.2d 1390, 1394 (9th Cir.1991));
see also Perricone v. Perricone, 292 Conn. 187, 22122 (in weighing the public interests as to whether to
enforce the agreement, the court observed: “The
agreement does not prohibit the disclosure of information concerning the enforcement of laws protecting
important rights, criminal behavior, the public health

App.105a
and safety or matters of great public importance, and
the plaintiff is not a public official.”).
On the record before me, balancing the significant
interests as stake on both sides supports enforcement
of the confidentiality agreements at this juncture. As
the Supreme Court recognized in Cohen v. Cowles
Media Co., 501 U.S. 663, 672 (1991), “the First
Amendment does not confer on the press a constitutional right to disregard promises that would otherwise be enforced under state law.” Id. at 672. “‘[T]he
publisher of a newspaper has no special immunity
from the application of general laws. He has no
special privilege to invade the rights and liberties of
others.’” Id. at 7670 (quoting Associated Press v. NLRB,
301 U.S. 103 (1937)); see also Dietemann v. Time,
Inc., 449 F.2d 245, 249 (9th Cir. 1971) (“The First
Amendment is not a license to trespass, to steal, or to
intrude by electronic means into the precincts of
another’s home or office. It does not become such a
license simply because the person subjected to the
intrusion is reasonably suspected of committing a
crime.”). That defendants intended to infiltrate the
NAF Annual Meetings in order to uncover evidence of
alleged criminal wrongdoing that would “trigger
criminal prosecution and civil litigation against Planned
Parenthood and to precipitate pro-life political and
cultural ramifications when the revelations become
public,” does not give defendants an automatic license to
disregard the confidentiality provisions. Pl. Ex. 26.
Defendants passionately contend that public policy
is on their side (and the side of public disclosure)
because the recordings show criminal wrongdoing by
abortion providers—a matter that is indisputably of
significant public interest. Cf. Bernardo v. Planned

App.106a

Parenthood Fed’n of Am., 115 Cal. App. 4th 322, 358

(2004) (approving judicial notice “of the fact that
abortion is one of the most controversial political
issues in our nation.”).32 I have reviewed the recordings
relied on by defendants and find no evidence of criminal
wrongdoing. At the very most, some of the individuals
expressed an interest in exploring a relationship with
defendants’ fake company in response to defendants
entreaties of how “profitable” it can be and how tissue
donation can assist in furthering research. There are
no express agreements to profit from the sale of fetal
tissue or to change the timing of abortions to allow
for tissue procurement.33
32 Defendants ask for leave to supplement the record to include
the January 20, 2016 Order in the StemExpress LLC, Inc. v.
Center for Medical Progress case pending in Los Angeles
Superior Court. Dkt. No. 352. Defendants ask me to take notice
that the Superior Court found defendants’ Project video regarding
StemExpress was “constitutionally protected activity in connection
with a matter of public interest” under California’s anti-SLAPP
statute. That motion is GRANTED.
33 The first piece of evidence that defendants repeatedly point
to show “illegality” is an advertisement by StemExpress that
was in both of the NAF 2014 and 2015 Meeting brochures. That
ad states that clinics can “advance biomedical research,” that
partnering with StemExpress can be “Financially Profitable*Easy
to Implement Plug-In Solution*Safeguards You and Your Donors”
and that the “partner program” “fiscally rewards clinics.” See
Dkt. No. 270-1 at p. 3 of 10. However, the ad explains that
StemExpress is a company that provides human tissue products
“ranging from fetal to adult tissues and healthy to diseased
samples” to many of the leading research institutions in the
world. Id. The ad, therefore, is a general one and not one aimed
solely at providers of fetal tissue. The ad does not demonstrate
that StemExpress was engaged in illegal conduct of paying
clinics at a profit for fetal tissue.

App.107a
I also find it significant that while defendants’
repeatedly assert that their primary interest in
infiltrating NAF was to uncover evidence of criminal
wrongdoing, and that the NAF recordings show such
wrongdoing, defendants did not provide any of the
NAF recordings to law enforcement following the 2014
Annual Meeting. Nor did defendants provide any of
the NAF recordings to law enforcement immediately
following the 2015 Annual Meetings. Instead, defendants decided it was more important to “curate” and
release the Project videos starting in July 2015. Sworn
testimony from Daleiden establishes that the only
disclosure of NAF materials he made to law enforcement officers was: (i) providing a StemExpress advertisement from the NAF 2014 Annual Meeting program
to law enforcement in El Dorado County, California
in May 2015; and, providing (ii) “short clips” of video
to law enforcement in Texas in June or July 2015.
Daleiden PI Decl. ¶ 24. If the NAF recordings truly
demonstrated criminal conduct—the alleged goal of the
undercover operation—then CMP would have immediately turned them over to law enforcement. They did
not.
Perhaps realizing that the recordings do not show
criminal wrongdoing, defendants shift and assert that
there is a public interest in the recordings showing “a
remarkable de-sensitization in the attitudes of industry
participants.” Oppo. Br. at 14. As part of that shift,
defendants’ opposition brief highlights portions of the
recordings where abortion providers comment candidly
about how emotionally and professionally difficult
their work can be. Oppo. Br. at 14-15. I have reviewed
defendants’ transcripts of these portions of the
recordings. Some comments can be characterized as

App.108a
callous and some may show a “de-sensitization,” as
defendants describe it. They can also be described as
frank and uttered in the context of providers mutually
recognizing the difficulties they face in performing
their work. However they are characterized, there
issome public interest in these comments. But unlike
defendants’ purported uncovering of criminal activity,
this sort of information is already fully part of the
public debate over abortion. Oppo. Br. at 49-50 (citing
Gonzales v. Carhart, 550 U.S. 124, 158 (2007); Stenberg
v. Carhart, 530 U.S. 914, 962 (2000)); see also VALUE
OF HUMAN LIFE, 162 Cong Rec S 162, 163 (January
21, 2016); PROVIDING FOR CONSIDERATION OF
H.R. 1947, FEDERAL AGRICULTURE REFORM
AND RISK MANAGEMENT ACT OF 2013, 159 Cong
Rec H 3708, 3709 (June 8, 2013 testimony on the
PAIN-CAPABLE UNBORN CHILD PROTECTION
ACT). The public interest in additional information
on this issue cannot, standing alone, outweigh the
competing interests of NAF and its members’ expectations of privacy, their ability to perform their
professions, and their personal security.
It is also this very information that could—if
released and taken out of the context that it was
shared in by NAF members—result in the sort of
disparagement, intimidation, and harassment of which
NAF members who were recorded during the Annual
Meetings are afraid. Dunn Decl. ¶ 10; Reeves Decl.
¶ 17. In sum, the public interest in these comments
is certainly relevant, but does not weigh heavily
against the enforcement of the NAF confidentiality
agreements.
On the other side, public policy also supports
NAF’s position. NAF has submitted extensive evidence

App.109a
that in order to fulfill its mission and allow candid
discussions of the challenges its members face—both
professional and personal—confidentiality agreements
for NAF Meeting attendees are absolutely necessary.
Dunn Decl. ¶¶ 5-6; Reeves Decl. ¶ 7; Saporta Decl.
¶¶ 11, 13-16; Mellor Decl. ¶¶ 7, 10-14. Release of the
recordings procured by fraud and taken in violation
of NAF’s stringent confidentiality agreements, which
disclose the identities of NAF members and compromise
steps NAF members take to protect their privacy and
professional interests, is also contrary to California’s
recognition of the dangers faced by providers of abortion, as well as California’s efforts to keep information regarding the same shielded from public disclosure and protect them from threats and harassment.
See Cal. Govt. Code § 6215(a) (“(a) Persons working in
the reproductive health care field, specifically the
provision of terminating a pregnancy, are often subject to harassment, threats, and acts of violence by
persons or groups.”); Cal. Civ. Code § 3427 et seq.
(creating cause of action to deter interference with
access to clinics and health care); Cal. Govt. Code
§ 6218 (“Prohibition on soliciting, selling, trading, or
posting on Internet private information of those
involved with reproductive health services”); Cal.
Govt. Code § 6254.28; Cal. Penal Code § 423
(“California Freedom of Access to Clinic and Church
Entrances Act.”). As noted above, since defendants’
release of the Project videos (as well as the leak of a
portion of the NAF recordings), harassment, threats,
and violent acts taken against NAF members and
facilities have increased dramatically. It is not speculative to expect that harassment, threats, and violent
acts will continue to rise if defendants were to release
NAF materials in a similar way. Weighing the public

App.110a
policy interests on the record before me, enforcement
of the confidentiality agreements against defendants
is not contrary to public policy.
That said, public policy may well support the
release of a small subset of records—those that
defendants believe show criminal wrongdoing—to law
enforcement agencies.34 Defendants rely on a line of
cases where courts have refused to enforce, or excused
compliance with, otherwise applicable confidentiality
agreements for the limited purpose of allowing cooperation with a specified law enforcement investigation.
See, e.g., Alderson v. United States, 718 F. Supp. 2d
1186, 1200 (C.D. Cal. 2010); In re JDS Uniphase
Corp. Sec. Litig., 238 F. Supp. 2d 1127 (N.D. Cal.
2002); Lachman v. Sperry-Sun Well Surveying Co.,
457 F.2d 850, 854 (10th Cir. 1972); see also United
States ex rel. Green v. Northrop Corp., 59 F.3d 953,
965 (9th Cir. 1995) (refusing to enforce a prefiling
release of a False Claims Act claim); Siebert v. Gene
Sec. Network, Inc, No. 11-CV-01987-JST, 2013 WL
5645309, at *8 (N.D. Cal. Oct. 16, 2013) (declining to
enforce a nondisclosure agreement with respect to
documents relevant to a FCA claim because application
of the NDA to those documents would “would frustrate
Congress’ purpose in enacting the False Claims Act—
namely, the public policy in favor of providing incentives
for whistleblowers to come forward, file FCA suits,
and aid the government in its investigation efforts.”);

but see Cafasso, U.S. ex rel. v. Gen. Dynamics C4
Sys., Inc., 637 F.3d 1047, 1062 n.15 (9th Cir. 2011)

34 As I have said, my review of the recordings relied on by
defendants does not show criminal conduct, but I recognize that
law enforcement agencies may want to review the information
at issue themselves in order to make their own assessment.

App.111a
(upholding breach of confidentiality claim, despite
plaintiff’s attempt to “excuse her conduct on the
grounds that she was in contact with, and providing
information to, government investigators,” in part
because that justification “neither explains nor excuses
the overbreadth of her seizure of documents.”).35
I do not disagree with the analysis and results in
those cases, but note that the posture of this case is
different. Defendants’ purported desire to disclose
the NAF recordings to law enforcement does not
obviate the confidentiality agreements for all purposes.
At most, defendants might have a defense to a breach
of contract claim based on production of NAF materials
to law enforcement. However, the question of whether
defendants should be excused from complying with
NAF’s confidentiality agreements in order to provide
NAF materials to law enforcement has not been placed
directly at issue. In this case, Attorney General amici
have appeared (with leave of court) to present their
arguments on the scope of the TRO and the requested
preliminary injunction.36 They have not directly sought
relief from the confidentiality agreements, the TRO,
35 Defendants also rely on a related line of cases holding that
contracts which expressly prohibit a signatory from reporting
criminal behavior to law enforcement agencies are void as
against public policy. See, e.g., Oppo. Br. at 52-55 (citing FombyDenson v. Dep’t of the Army, 247 F.3d 1366, 1376 (Fed. Cir. 2001);
Bowyer v. Burgess, 54 Cal. 2d 97, 98 (1960)). Those cases are
inapposite.
36 I have granted the Attorneys General of the states of Alabama,
Arizona, Arkansas, Michigan, Montana, Nebraska, and Oklahoma
leave to participate as amici curiae in this matter. Dkt. Nos. 99,
100, 285. As represented by the office of the Attorney General of
Arizona, the amici filed a brief and argued in court during the
hearing on the Motion for a Preliminary Injunction.

App.112a
or the requested preliminary injunction by intervening
and moving for declaratory relief in this Court or by
seeking enforcement of their subpoenas in the courts
of their own states. And contrary to their assertion,
the TRO in place and the Preliminary Injunction
requested do not prevent law enforcement officials
from investigating defendants’ claims of criminal
wrongdoing. For example, law enforcement agencies
from the states of Arizona and Louisiana have
instituted formal efforts to secure the NAF recordings.
Under procedures outlined in the Protective Order in
this case, NAF and defendants have been and continue
to meet and confer with those state authorities about
the scope of the subpoenas and defendants’ responses.37
The record before me demonstrates that
defendants infiltrated the NAF meetings with the intent
to disregard the confidentiality provisions and secretly
record participants and presentations at those meetings.
Defendants also admit that only a small subset of the
total material gathered implicate any potential criminal
wrongdoing. Oppo. Br. at 10-14. I have reviewed those
transcripts and recordings and find no evidence of
actual criminal wrongdoing. That defendants did not
promptly turn over those recordings to law enforcement
likewise belies their claim that they uncovered criminal
wrongdoing, and instead supports NAF’s contention
37 There have only been three subpoenas served on CMP for
NAF materials; the Congressional subpoena that has been
complied with, as well as subpoenas from Louisiana and Arizona.
Negotiations between NAF, CMP, and the states of Louisiana
and Arizona are ongoing. While NAF and the defendants have
repeatedly stipulated to extend the timeframe for NAF to file a
challenge to the state subpoenas in state court (see Dkt. Nos.
246, 300), those were decisions reached by the parties and not
imposed by the Court.

App.113a
that defendants’ goal instead is to falsely portray the
operations of NAF’s members through continued release
of its “curated” videos as part of its strategy to alter
the political landscape with respect to abortion and
the public perception of NAF’s members.38 I conclude
that NAF has shown a strong likelihood of success on
its breach of contract claims against CMP and
Daleiden. Enforcement of NAF’s confidentiality provisions for purposes of continuing the injunction prohibiting defendants from releasing the NAF materials
is not against public policy.
D. Claims Against Newman
Defendant Newman argues that NAF has failed to
show a likelihood of success against him because there
is no evidence of his role in the NAF infiltration and
no argument that Newman breached any of NAF’s
agreements. Newman’s argument would be more
relevant if this were a motion for summary judgment.
However, it is not. The only question is whether NAF
has made a strong showing of the likelihood of success
on its contract claim against CMP and Daleiden, which
it has. NAF submitted evidence of Newman’s own
admissions that he advised Daleiden on how to infiltrate
the NAF meetings as part of the Project, which is
relevant to the appropriate scope of an injunction. Pl.
Ex. 14 (at NAF0004475-76); Pl. Ex. 16 (at NAF000449338 In opposing NAF’s request that the Court order Daleiden to
turn over the NAF materials to his outside counsel, Daleiden’s
counsel explained that Daleiden needed access to the NAF
materials because “Mr. Daleiden continues to work on the
Human Capital Project, including the work of curating available
raw investigative materials for disclosure to law enforcement
and for release of videos to the public.” Dkt. No. 195.

App.114a
94). That evidence makes clear that Newman should
remain covered by the Preliminary Injunction, even
if he is no longer serving as a board member of CMP.
Dkt. No. 344.
II.

Irreparable Injury

To sustain the request for a preliminary injunction,
NAF must demonstrate that “irreparable injury is likely
in the absence of” the requested injunction” and
establish a “sufficient causal connection” between the
irreparable harm NAF seeks to avoid and defendants’
intended conduct—release of the NAF materials. Winter
v. Natural Res. Def. Council, Inc., 555 U.S. 7, 22
(2008); Perfect 10, Inc. v. Google, Inc., 653 F.3d 976,
982 (9th Cir. 2011).
Defendants argue that NAF has not shown that it
will suffer irreparable injury to justify a preliminary
injunction. However, as detailed above, the release of
videos as part of defendants’ Human Capital Project
has directly led to a significant increase in harassment,
threats, and violence directed not only at the
“targets” of CMP’s videos but also at NAF and its members more generally. This significant increase in
harassment and violent acts—including the most
recent attack in Colorado Springs at the clinic where
“target” Dr. Ginde is the medical director—has been
adequately linked to the timing of the release of the
Project videos by CMP. Saporta Decl. ¶ 19; Saporta
Depo. 42:1-10; Pl. Exs. 92, 93, 96-99.39 If the NAF
materials were publicly released, it is likely that the
39 Defendants object to Exhibits 98 and 99 as inadmissible
hearsay, for lack of personal knowledge, lack of authentication,
and as irrelevant. Those objections are overruled.

App.115a
NAF attendees shown in those recordings would not
only face an increase in harassment, threats, or
incidents of violence, but also would have to expend
more effort and money to implement additional
security measures. See, e.g., Dunn Decl. ¶ 10; Reeves
Decl. ¶ 19.40 The same is true for NAF itself, which
provides security assessments and assistance for its
members. Mellor Decl., ¶ 15; Saporta Decl. ¶ 10.
Defendants contend that they cannot be held
responsible for the threats, harassment, and violence
caused by “third-parties” in response to the release of
the Project videos, and that defendants’ ability to
publish the NAF materials cannot be prevented
when defendants have not themselves been linked to
the threats, harassment, and violence. Oppo. Br. at
43-44. But they fail to contradict NAF’s evidentiary
showing that a significant increase in these acts
followed CMP’s release of its Project videos. Moreover, a
report submitted by NAF of an analysis of many of
the “highlight” and “full” videos released by CMP
concluded that the “curated” or highlight Project
videos were “misleading” and suggests that the “full”
videos defendants released along with their “highlights”
were also edited. Pl. Ex. 77. Defendants do not counter
this evidence, other than pointing to Daleiden’s
assertion that the highlight videos were accompanied
by the release of the “full” recordings. Given the
evidence of defendants’ past practices, allowing defendants to use the NAF materials in future Project
videos would likely lead to the same result—release
of misleading “highlight” videos disclosing the identity
40 Defendants object to paragraph 19 of Dr. Reeves’ declaration
as speculative, improper expert testimony, and for lack of
foundation. Those objections are OVERRULED.

App.116a
and comments of NAF members and meeting attendees, resulting in further harassment and incidents of
violence against the individuals shown in those
recordings. The NAF members and attendees in the
recordings have a justifiable expectation that release
of the materials—in direct contravention of the NAF
confidentiality agreements—will result not only in
harassment and violence but reputational harms as
well. See, e.g., Dunn Decl. ¶¶ 9-10;41 Reeves Decl.
¶ 17.
Defendants miss the point in their attempt to
shift the responsibility to overly zealous third-parties
for the actual and likely injury to NAF and its members that would stem from disclosure of the NAF
materials. If defendants are allowed to release the
NAF materials, NAF and its members would suffer
immediate harms, including the need to take additional security measures. The “causal connection”
between NAF’s and its members’ irreparable injury
and the conduct enjoined (release of NAF materials)
has been shown on this record.42
41 Defendants object to paragraph 9 of the Dunn Declaration as
lacking in personal knowledge, improper expert testimony,
inadmissible hearsay, improper opinion testimony, and under
the best evidence rule. Those objections are overruled.
42 The sum of defendants’ argument and evidence on this point
is that they cannot be blamed for the “hyperbolic comments of
anonymous Internet commenters” and that “hyperbolic ‘death
threats’ on the Internet and through social media has become
an ubiquitous feature of online discourse.” Oppo. Br. at 44-45.
But the misleading nature of the Project videos that they have
produced—reflective of the misleading nature of defendants’
repeated assertions that the recordings at issue show
significant evidence of criminal wrongdoing—have had tragic
consequences, including the attack in Colorado where the

App.117a
On the other side of the equation is defendants’
claim of irreparable injury. They focus on their First
Amendment right to disseminate the information
fraudulently obtained at the NAF Meetings, and the
injury to the public of being deprived of the NAF
recordings. But freedom of speech is not absolute,
especially where there has been a voluntary agreement to keep information confidential. While the disclosure of evidence of criminal activity or evidence of
imminent harm to public health and safety could outweigh enforcement of NAF’s confidentiality agreements (as discussed above), there is no such evidence
in defendants’ recordings. Viewed in a light most
favorable to defendants, what does appear is information that is already in the public domain that
defendants characterize as showing a “de-sensitization”
as to the work performed by abortion providers. The
balance of NAF’s strong showing of irreparable injury
to its members’ freedom of association (to gather at
NAF meetings and share their confidences), to its
and its members’ security, and to its members’ ability to
perform their chosen professions against preventing
(through trial) defendants from disclosing information that is of public interest but which is neither
new or unique, tilts strongly in favor of NAF.
III. Balance of Equities
Similar to the discussion of competing claims of
irreparable injury, the balance of equities favors
NAF. Defendants will suffer the hardship of being
restricted in what evidence they can release to the
public in support of their ongoing Human Capital
gunman was apparently motivated by the CMP’s characterization of
the sale of “baby parts.”

App.118a
Project, at least through a final determination at
trial. However, the hardships suffered by NAF and
its members are far more immediate, significant, and
irreparable.
IV. Public Interest
I fully recognize that there is strong public interest on the issue of abortion on both sides of that
debate, and that members of the public therefore
have an interest in accessing the NAF materials. I
also recognize that this case impinges on defendants’
rights to speech and the public’s equally important
interest in hearing that speech. But this is not a
typical freedom of speech case.43 Nor is this a typical
43 None of the “prior restraint” cases defendants rely on address
the types of exceptional facts established here: (i) enforceable
confidentiality agreements, knowingly and voluntarily entered
into, in which defendants agreed to the remedy of injunctive
relief in the event of a breach; (ii) extensive and repeated
fraudulent conduct; (iii) misleading characterizations about the
information procured by misrepresentation; and (iv) a strong
showing of irreparable harm if the confidentiality agreements
are not enforced pending trial. See Oppo. Br. at 32-35. Several
of defendants’ prior restraint cases expressly left open the
possibility of limits on speech where “private wrongs” and “clear
evidence of criminal activity” occurred. See, e.g., Org. for a
Better Austin v. Keefe, 402 U.S. 415, 419-20 (1971) (overturned
broad injunction prohibiting “peaceful” pamphleteering across a
city where injunction was not necessary to redress a “private
wrong”); CBS, Inc. v. Davis, 510 U.S. 1315, 1318 (1994)
(emergency stay overturning prior restraint where damage to
meat packing company was readily remedied by post-publication
damages action and “the record as developed thus far contains no
clear evidence of criminal activity on the part of CBS, and the
court below found none.”); see also Bartnicki v. Vopper, 532 U.S.
514, 529-30 (2001) (striking down wiretap statutes to extent they
penalized the publishing of secretly recorded phone conversations by
reporters who played no role in the illegal interception; rejecting

App.119a
“newsgathering” case where courts refuse to impose
prior restraints on speech, leaving the remedies for
any defamatory publication or breach of contract to
resolution post-publication. See, e.g., CBS, Inc. v.
Davis, 510 U.S. 1315, 1318 (1994); see also Promotions, Ltd. v. Conrad, 420 U.S. 546, 559 (1975).
Instead, this is an exceptional case where the extraordinary circumstances and evidence to date
shows that the public interest weighs in favor of
granting the preliminary injunction. Weighing against
the public’s general interest in disclosure of the
recordings showing the “de-sensitization” of abortion
providers, is the fact that there is a constitutional
right to abortions and that NAF members also have
the right to associate in privacy and safety to discuss
their profession at the NAF Meetings, and need that
privacy and safety in order to safely practice their
profession. On the record before me, NAF has demonstrated the release of the NAF materials will
irreparably impinge on those rights.
The context of how defendants came into possession of the NAF materials cannot be ignored and
directly supports preliminarily preventing the disclosure of these materials. Defendants engaged in
repeated instances of fraud, including the manufacture of fake documents, the creation and registration
with the state of California of a fake company, and
repeated false statements to a numerous NAF representatives and NAF members in order to infiltrate
NAF and implement their Human Capital Project.
proposition that “speech by a law-abiding possessor of information
can be suppressed in order to deter conduct by a non-law-abiding
third party.”).

App.120a
The products of that Project—achieved in large part
from the infiltration—thus far have not been pieces
of journalistic integrity, but misleadingly edited
videos and unfounded assertions (at least with respect
to the NAF materials) of criminal misconduct. Defendants did not—as Daleiden repeatedly asserts—use
widely accepted investigatory journalism techniques.
Defendants provide no evidence to support that assertion and no cases on point.44
44 Defendants rely on cases where reporters misrepresented
themselves in the course of undercover investigations, but those
cases do not show the level of fraud and misrepresentation
defendants engaged in here. For example, in Med. Lab. Mgmt.
Consultants v. ABC, 306 F.3d 806, 812 (9th Cir. 2002), reporters
posed as employees of fictitious labs, in order to investigate
whether an existing lab was violating federal regulations and
misreading pap smear tests. There is no evidence that the
reporters in the Med. Lab. case did anything other than verbally
misrepresent themselves to the lab owner; the reporters did not
create fictitious documents, register a fictitious company, or
intentionally agree to confidentiality agreements before making
their undercover recordings. Id. at 814 n.4 (noting the plaintiffs
failed to obtain confidentiality agreements from defendants). It
is also important to note that while the Ninth Circuit affirmed
the district court’s order granting summary judgment to defendants
on plaintiffs’ intrusion on seclusion, trespass, and tortious
interference claims under Arizona law, the district court denied
in part defendants’ motion as to plaintiffs’ fraud claim. Id. at 812. In
J.H. Desnick v. Am. Broad. Cos., 44 F.3d 1345, 1348 (7th Cir.
1995), the reporters posed as patients of an eye center and
secretly recorded their eye exams. The misrepresentations in
that case simply do not rise to the level of the misrepresentations
here or the fraudulent lengths defendants went through to
secure their recordings. Also, in that case, the Court of Appeals
remanded the defamation claim for further proceedings, and
affirmed the dismissal of the trespass, privacy, wiretapping,
and fraud claims based on an analysis of the facts under the
state and federal laws at issue. The district court did not dismiss

App.121a
V.

Scope of Injunction
A. Coverage of Third Party Law Enforcement
Entities and Governmental Officials

Defendants and the Attorney Generals of the
states of Alabama, Arizona, Arkansas, Michigan,
Montana, Nebraska, and Oklahoma (AG Amici) argue
that any continuing injunction on the release of the
NAF materials should not run to third-party law
enforcement entities or government officials because
NAF has not shown that disclosure of the NAF
materials to law enforcement entities or government
officials will result in irreparable harm and the
public interest strongly favors governments being
free to exercise their investigatory powers. See AG
Amici Brief (Dkt. No. 285).
The Protective Order and the injunction in this
case do not hinder the ability of states or other
governmental entities from conducting investigathe breach of contract claim. Id. at 1354. Finally, defendants’
citation to Animal Legal Def. Fund v. Otter, No. 1:14-CV-00104BLW, 2015 WL 4623943 (D. Idaho Aug. 3, 2015), for the
proposition that using deceptive tactics to conduct an
undercover investigation “is not ‘fraud’ and is fully protected by
the First Amendment,” is not supported. In that case, the
district court struck down a state law that criminalized the use
of “misrepresentation” to gain access to and record operations in
an agricultural facility. In striking down the law as a contentbased regulation of protected speech which failed strict scrutiny, the
court noted that the law did not “limit its misrepresentation
prohibition to false speech amounting to actionable fraud,” and
any harm from the speech at issue would not be compensable as
“harm for fraud or defamation” because the harm did not stem
from the misrepresentation made to access the facility. Id. at *
5-6. That case did not hold that undercover operations could not
result in actionable fraud, breach of contract, or libel.

App.122a
tions. Nor do they bar defendants from disclosing
materials in response to subpoenas from law enforcement or other government entities. Instead, those orders
simply impose a notice requirement on defendants;
requiring them to notify NAF prior to defendants’
production of the NAF materials so that NAF may (if
necessary) challenge the subpoenas in the state court
at issue. Contrary to the AG Amici position, these
limited procedures do not purport to bind the states
or prevent them from conducting investigations or
seeking relief in their own courts. The Protective
Order and injunction simply create an orderly procedure to allow production of relevant information to
state law enforcement or other governmental entities.
As far as I am aware, that procedure has worked well
and negotiations are ongoing between NAF, defendants,
and the two states that have issued subpoenas to
CMP, Arizona and Louisiana.45
B. Expansion of Injunctive Relief
NAF also seeks to expand the injunctive relief to
prevent defendants and those acting in concert with
them from publishing or disclosing “any video, audio,
photographic, or other recordings taken of members
or attendees Defendants first made contact with at
NAF meetings” and “enjoin the defendants from
45 Similarly defendants appropriately notified the Court that
CMP was subpoenaed to testify in front of a grand jury, and
explained that if Daleiden was called upon to disclose information he learned at the NAF Annual Meetings in responding to the
grand jury’s questions, Daleiden intended to do so absent
further order from this Court. Dkt. No. 323-5. This Court did
nothing to prevent Daleiden from testifying fully in front of that
grand jury.

App.123a
attempting to gain access to any future NAF meetings.” Motion at i, 2.
On this record, NAF has not demonstrated that
an expansion of the injunction is warranted. NAF
does not identify (under seal or otherwise) the NAF
members or attendees whom it believes have been
recorded and whom defendants “first made contact
with” at a NAF Annual Meeting. A request for injunctive relief must be specific and reasonably detailed,
but NAF’s request would import ambiguity into the
scope of the injunction. Absent a more specific
showing supported by evidence, I will not expand the
preliminary injunction to ban CMP from releasing
unspecified recordings of unspecified NAF members
or attendees defendants “first made contact with” at
the NAF Meetings.
Similarly, NAF has not shown that an “openended” expansion of the injunction to prohibit the
“defendants from attempting to gain access to any
future NAF meetings,” is necessary. Defendants and
their agents are now well known to NAF and its
members and absent evidence that defendants intend
to continue to attempt to infiltrate NAF meetings,
there is no need to extend the preliminary injunction
at this juncture.
CONCLUSION
Considering the evidence before me, and finding
that NAF has made a strong showing on all relevant
points, I GRANT the motion for a preliminary
injunction. Pending a final judgment, defendants and
those individuals who gained access to NAF’s 2014
and 2015 Annual Meetings using aliases and acting
with defendant CMP (including but not limited to the

App.124a
following individuals/aliases: Susan Tennenbaum,
Brianna Allen, Rebecca Wagner, Adrian Lopez, and
Philip Cronin) are restrained and enjoined from:
(1) publishing or otherwise disclosing to any
third party any video, audio, photographic,
or other recordings taken, or any confidential information learned, at any NAF
annual meetings;
(2) publishing or otherwise disclosing to any
third party the dates or locations of any
future NAF meetings; and
(3) publishing or otherwise disclosing to any
third party the names or addresses of any
NAF members learned at any NAF annual
meetings.
IT IS SO ORDERED.
/s/ William H. Orrick
United States District Judge
Dated: February 5, 2016

App.125a

ORDER OF THE UNITED STATES COURT OF
APPEALS FOR THE NINTH CIRCUIT DENYING
PETITIONS FOR REHEARING EN BANC
(JULY 19, 2019)
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
________________________
NATIONAL ABORTION FEDERATION,

Plaintiff-Appellee,
v.
CENTER FOR MEDICAL PROGRESS; ET AL.,

Defendants,
and
STEVE COOLEY; BRENTFORD J. FERREIRA,

Respondents-Appellants.

________________________
No. 17-16622

D.C. No. 3:15-cv-03522-WHO
Northern District of California, San Francisco
________________________
NATIONAL ABORTION FEDERATION,

Plaintiff-Appellee,

App.126a
v.
CENTER FOR MEDICAL PROGRESS; ET AL.,

Defendants-Appellants.

________________________
No. 17-16862

D.C. No. 3:15-cv-03522-WHO
Before: RAWLINSON, WATFORD, and
FRIEDLAND, Circuit Judges.
The panel unanimously votes to deny the petitions
for rehearing en banc (Dkt. Nos. 81, 82).
The full court has been advised of the petitions for
rehearing en banc, and no judge requested a vote on
whether to rehear either matter en banc. Fed. R. App.
P. 35.
The petitions for rehearing en banc, filed June 19,
2019, are DENIED.

